No. _____________

IN THE

Supreme Court of the United States
__________________
Noel Cruz,

Petitioner,

v.
United States of America
__________________

Respondent

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Second Circuit
__________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
__________________

W. THEODORE KOCH, III
KOCH, GARG & BROWN
8 W. Main St., Ste. 2-10
Niantic, CT 06357
(860) 452-6860
general@kgb-law.com
APRIL 19, 2021

Counsel for Petitioner

Table of Contents
District Court’s Order: Ruling Re: Successive Petition to Vacate, Set Aside, or
Correct Sentence.......................................................................................................... A1
Second Circuit Decision: Luis Noel Cruz v. United States of America, No. 19-989cr, September 11, 2020 .............................................................................................. A58
Order Denying Rehearing or En Banc Rehearing, November 19, 2020.................. A65
In re Pers. Restraint of Monschke, Nos. Nos. 96772-5, 96773-3, 2021 Wash.
LEXIS 152 (Wa. Mar. 11, 2021) ................................................................................ A67

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 1 of 57

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
LUIS NOEL CRUZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

:
:
:
:
:
:
:

CIVIL ACTION NO.
11-CV-787 (JCH)

MARCH 29, 2018

RULING RE: SUCCESSIVE PETITION TO VACATE, SET ASIDE, OR CORRECT
SENTENCE (DOC. NO. 37)

I.

TABLE OF CONTENTS
INTRODUCTION...................................................................................................... 2

II.

FACTUAL BACKGROUND ...................................................................................... 2

III.

PROCEDURAL BACKGROUND ........................................................................... 4

IV.

LEGAL STANDARD .............................................................................................. 7

V.

DISCUSSION ........................................................................................................... 7
A.

Requirements of Section 2255(h)(2) .................................................................. 8
1.

Standard of Review Under Section 2255(h) .................................................... 8

2.

Second Circuit’s Mandate Authorizing Successive Petition .......................... 10

3.

Timeliness ..................................................................................................... 12

4.

Section 2255(h)(2) in the Miller Context ........................................................ 14

5.
Analogous Interpretation of Section 2255(h) from Cases Under Johnson v.
United States.......................................................................................................... 17
6.

Miller’s Application to 18-Year-Olds ................................................................. 31

B.

VI.

Interpretation of Section 2255(h) and Application to This Case .................... 26

1.

National Consensus ...................................................................................... 39

2.

Scientific Evidence ........................................................................................ 48

CONCLUSION .................................................................................................... 57

A1

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 2 of 57

I.

INTRODUCTION
The Second Circuit authorized the petitioner, Luis Noel Cruz, to file a successive

habeas petition pursuant to section 2255 of title 28 of the United States Code on July
22, 2013. See Mandate of the USCA (Doc. No. 23). On August 19, 2014, Cruz filed the
Successive Petition to Vacate, Set Aside, or Correct Sentence currently pending before
the court. See Successive Petition to Vacate, Set Aside, or Correct Sentence (“Pet. to
Vacate”) (Doc. No. 37). In it, Cruz argues, inter alia, that his sentence of mandatory life
imprisonment without the possibility of parole violates the Eighth Amendment of the
United States Constitution, relying on the rule announced in Miller v. Alabama, 567 U.S.
460 (2012). See id. at 10–22. The respondent, the United States (“the Government”),
opposes Cruz’s Petition. See Government’s Response to Pet. to Vacate (“Resp. to
Pet.”) (Doc. No. 64).
For the reasons set forth below, Cruz’s Petition is GRANTED.
II.

FACTUAL BACKGROUND
Luis Noel Cruz was born on December 25, 1975. See Transcript of Evidentiary

Hearing (“Cruz Tr.”) (Doc. No. 114) at 77. Beginning on or about November 1991, when
Cruz was 15 years old, he joined the Latin Kings, a violent gang with branches of
operations in Connecticut. See Pet. to Vacate, Ex. 1, Indictment (Doc. No. 37-1) at ¶
14. Cruz testified at an evidentiary hearing before this court that he never held a
position of leadership in the gang and that members were expected to obey the orders,
called “missions,” of the leaders. See Cruz Tr. at 14–15, 19. He testified that a mission
could include anything, including murder, and that disobedience would result in the
same mission being carried out on the person who disobeyed. See id. at 14, 19. Cruz
further testified that he attempted to renounce his membership in the Latin Kings prior to

A2

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 3 of 57

the occurrence of the murders for which he is now serving concurrent life sentences.
See id. at 16–17. While he believed at the time that he had successfully left the gang,
he later learned that the leaders of the Latin Kings had viewed his attempt to resign as
an act of disrespect and that his status in the gang was uncertain. See id. at 17, 19.
Cruz turned 18 on December 25, 1993. On May 14, 1994, when Cruz was 18
years and 20 weeks old, Cruz and another member of the Latin Kings, Alexis Antuna,
were given a mission by gang leader Richard Morales. See United States v. Diaz, 176
F.3d 52, 84 (2d Cir. 1999). The mission was to kill Arosmo “Rara” Diaz. See id.
Carrying out that mission, Cruz and Antuna shot and killed Diaz and his friend, Tyler
White, who happened to be with Diaz at the time. See id. Cruz testified at the hearing
before this court that he now admits to committing both murders. See Cruz Tr. at 27.
He further testified that Antuna informed him at the time that the leaders of the Latin
Kings were debating what would happen to him as a result of his attempt to leave the
gang. See id. at 19. According to his testimony, Cruz believed that, if he did not carry
out the mission, he himself would be killed. See id.
In December 1994, a grand jury indicted Cruz for, inter alia, three Violent Crimes
in Aid of Racketeering (“VCAR”), in violation of section 1959(a) of title 18 of the United
States Code. See Indictment at ¶¶ 75–81; United States v. Millet, No. 94-CR-112,
Superseding Indictment (Doc. No. 625) at ¶¶ 74–79. The three VCAR crimes were the
conspiracy to murder Diaz (Count 24), the murder of Diaz (Count 25), and the murder of
White (Count 26). See id. Cruz and a number of his co-defendants went to trial and, on
September 29, 1995, a jury convicted Cruz on all three VCAR counts, in addition to
violation of the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C.

A3

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 4 of 57

§ 1962(c), conspiracy to violate RICO, and conspiracy to commit a drug offense. See
Millet, Verdict Form (Doc. No. 945); Millet, Judgment (Doc. No. 1072) at 1. On January
30, 1996, Cruz was sentenced to, inter alia, four concurrent terms of mandatory life
without parole for the two VCAR murders, the RICO violation, and the conspiracy to
violate RICO. See Judgment at 2.
Cruz is now 42 years old. He testified at the hearing before this court that, during
his incarceration, he renounced the Latin Kings and has been a model inmate, teaching
programs to other inmates and receiving only one disciplinary ticket during his 24 years
of incarceration. See Cruz Tr. at 23, 70. His testimony is supported by letters from the
staff at the Bureau of Prisons. See Pet. to Vacate, Ex. 2, 3.
III.

PROCEDURAL BACKGROUND
On May 4, 1999, the Second Circuit affirmed Cruz’s conviction on appeal. See

Diaz, 176 F.3d at 73. Cruz subsequently filed four habeas petitions under section 2255
of title 28 of the United States Code, from 2001 to 2013, each of which was denied.
See Resp. to Pet. at 4–6. On July 22, 2013, the Second Circuit granted Cruz’s request
to file a successive petition under section 2255(h)(2) to raise a claim under Miller. See
Mandate of USCA. The Second Circuit determined that Cruz made a prima facie
showing that he satisfied the requirements of section 2255(h) and directed this court to
address “whether the United States Supreme Court’s decision in Miller announced a
new rule of law made retroactive to cases on collateral review.” Id. at 1.

A4

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 5 of 57

Cruz filed his Petition on August 18, 2014. See Pet. to Vacate. In it, he raised
two arguments.1 First, Cruz argued that he was 15 years old when he first joined the
Latin Kings and, because membership in a RICO enterprise is an element of his VCAR
conviction, he was a juvenile at the time that he committed the element of the crime that
triggers mandatory life imprisonment, thereby making his sentence unconstitutional
under Miller. See id. at 4–9. Second, he argued that Miller’s prohibition of mandatory
life imprisonment for adolescents should also be applied to those who were 18 at the
time of their crimes because scientific research and national consensus indicate that 18year-olds exhibit the same hallmark features of youth that justified the decision in Miller.
See id. at 10–22.
On May 12, 2015, this court granted Cruz’s Motion to Stay the proceedings,
pending the Supreme Court’s decision on the retroactivity of Miller. See Order Granting
Motion to Stay (Doc. No. 49). In 2016, the Supreme Court held in Montgomery v.
Louisiana, 136 S. Ct. 718 (2016), that Miller v. Alabama announced a new substantive
constitutional rule that was retroactive on collateral review. See Montgomery, 136 S.
Ct. at 734.
On April 3, 2017, after briefing and argument, the court granted Cruz’s Motion for
a Hearing. See Ruling re: Motion for Hearing and Supplemental Section 2255 Motion
(“Ruling re: Mot. for Hr’g”) (Doc. No. 86). The court held that there was no issue of fact
regarding Cruz’s first argument, finding that Cruz remained a member of the Latin Kings

1 Cruz also filed a Supplemental Section 2255 Motion seeking relief pursuant to Montcrieffe v.
Holder, 133 S. Ct. 1678 (2013). See Supplemental Memorandum of Law (Doc. No. 43). This court
denied relief on Cruz’s supplemental argument. See Ruling re: Motion for Hearing and Supplemental
Section 2255 Motion (Doc. No. 86) at 29–30.

A5

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 6 of 57

after turning 18 and committed the murders at age 18. See id. at 19–22. Therefore, he
was 18 “during his commission of each of the elements of the crime of VCAR murder.”
Id. at 21. Accordingly, the court declined to grant him a hearing to offer evidence in
support of that theory. See id. at 22. The court found, however, that an issue of fact
existed as to whether Miller’s protections should apply to an 18-year-old and ordered
the parties to present evidence of national consensus and scientific research on this
issue. See id. at 23–29. The court denied the Government’s Motion for
Reconsideration of its decision. See Ruling re: Motion for Reconsideration (“Ruling re:
Reconsideration”) (Doc. No. 99).
On September 13 and 29, 2017, the court held evidentiary hearings at which an
expert witness, Dr. Laurence Steinberg, testified about the status of scientific research
on adolescent brain development and Cruz testified about the trajectory of his life.2 See
Transcript of Evidentiary Hearing (“Steinberg Tr.”) (Doc. No. 111); Cruz Tr. After the
hearing, the court permitted the parties to file supplemental briefings and held oral
argument on February 28, 2018. See Petitioner’s Post-Hearing Memorandum in
Support of Pet. to Vacate (“Post-Hr’g Mem. in Supp.”) (Doc. No. 115); Government’s
Post-Hearing Memorandum in Opposition to Pet. to Vacate (“Post-Hr’g Mem. in Opp.”)

The Government objected to the relevance of Cruz’s testimony, arguing that “his specific
characteristics have no bearing on whether this Court is authorized to rethink the Supreme Court’s
decision in Miller, much less whether any change would be warranted in Eighth Amendment
jurisprudence.” See Government’s Post-Hearing Memorandum in Opposition to Pet. to Vacate (“PostHr’g Mem. in Opp.”) (Doc. No. 117) at 29. The Government argues that such evidence is appropriately
addressed only at a resentencing hearing for Cruz, should the court grant Cruz’s petition. See id.
2

The court notes that Cruz’s testimony was admitted only as a case study, or as one example, of
the trajectory of adolescent brain development. See Miller, 567 U.S. at 478 (describing the facts
surrounding each defendant’s case as “illustrat[ing] the problem”). The court does not base this Ruling on
the specific facts of Cruz’s case.

A6

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 7 of 57

(Doc. No. 117); Petitioner’s Reply to Government’s Post-Hr’g Mem. in Opp. (“Post-Hr’g
Reply in Supp.”) (Doc. No. 120); Minute Entry, Oral Argument Hearing (Doc. No. 124).
IV.

LEGAL STANDARD
Section 2255 of title 28 of the United States Code permits a federal prisoner to

move to vacate, set aside, or correct his sentence “upon the ground that the sentence
was imposed in violation of the Constitution or laws of the United States, or that the
court was without jurisdiction to impose such sentence, or that the sentence was in
excess of the maximum authorized by law, or is otherwise subject to collateral attack.”
28 U.S.C. § 2255(a) (2016). Therefore, relief is available “under § 2255 only for a
constitutional error, a lack of jurisdiction in the sentencing court, or an error of law that
constitutes a fundamental defect which inherently results in a complete miscarriage of
justice.” Cuoco v. United States, 208 F.3d 27, 30 (2d Cir. 2000) (quoting United States
v. Bokun, 73 F.3d 8, 12 (2d Cir. 1995)). The petitioner bears the burden of proving that
he is entitled to relief by a preponderance of the evidence. See Skaftouros v. United
States, 667 F.3d 144, 158 (2d Cir. 2011).
V.

DISCUSSION
The court adopts the analysis in its prior Ruling finding no issue of fact regarding

Cruz’s first argument that he was under the age of 18, when at least one element of the
VCAR murders was committed. See Ruling re: Mot. for Hr’g at 19–22. Accordingly,
Cruz’s Petition is denied on that ground. The court undertakes in this Ruling to address
Cruz’s second argument: that Miller applies to him as an 18-year-old.

A7

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 8 of 57

A.

Requirements of Section 2255(h)(2)
1.

Standard of Review Under Section 2255(h)

Before reaching the merits of Cruz’s Petition, the court must first address the
threshold issue of whether the requirements of section 2255(h)(2) have been satisfied.
When a petitioner is filing a second or successive petition for habeas relief under
section 2255(h), as here, the petitioner must receive authorization from the appropriate
Court of Appeals to file the petition. See 28 U.S.C. § 2255(h). The Court of Appeals
may certify the petition if it finds that the petition has made a prima facie showing that
the petition “contain[s] . . . a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.” Id.; 28 U.S.C.
§ 2244(b)(3)(C) (establishing a prima facie standard, which section 2255(h)
incorporates); see also Bell v. United States, 296 F.3d 127, 128 (2d Cir. 2002). Without
such certification by the Court of Appeals, the district court lacks jurisdiction to decide
the merits of the petition. See Burton v. Stewart, 549 U.S. 147, 157 (2007).
Once the Court of Appeals has certified the petition, however, this court must
conduct a “fuller exploration” of whether the petition has satisfied the requirements of
section 2255(h). See Bell, 296 F.3d at 128 (quoting Bennett v. United States, 119 F.3d
468, 469–70 (7th Cir. 1997)). In doing so, the court is serving a gate-keeping function
prior to determining the merits of the peition. If the court finds that the Petition has not
satisfied the requirements of section 2255(h), the court must dismiss the Petition. See
28 U.S.C. § 2244(b)(4) (“A district court shall dismiss any claim presented in a second
or successive application that the court of appeals has authorized to be filed unless the
applicant shows that the claim satisfies the requirements of this section.”); In re
Bradford, 830 F.3d 1273, 1276 (11th Cir. 2016) (holding that section 2255(h)

A8

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 9 of 57

incorporates section 2244(b)(4)). “Even where the Court of Appeals has authorized the
filing of a successive petition, its order authorizing the district court to review the petition
does not foreclose the district court’s independent review of whether the petition
survives dismissal.” Ferranti v. United States, No. 05-CV-5222 (ERK), 2010 WL
307445, at *10 (E.D.N.Y. Jan. 26, 2010), aff'd, 480 Fed. App'x 634 (2d Cir. 2012).
Although Ferranti cites section 2244(b)(4) for the proposition that the district court is
authorized to dismiss a claim that does not meet the requirements of section 2255(h),
id., the language of section 2244(b)(4) actually requires the district court to dismiss the
claim in such situations. See 28 U.S.C. § 2244(b)(4) (stating that the district court “shall
dismiss” such a claim); Ferranti v. United States, 480 Fed. App’x 634, 636–37 (2d Cir.
2012) (stating that such a claim “will be dismissed”).
While the Court of Appeals’ inquiry is limited to whether the petitioner has made
a prima facie showing that the requirements are met, the district court must determine
that they are actually met. See id.; see also Tyler v. Cain, 533 U.S. 656, 661 n.3
(2001). Because the standards used by the Court of Appeals and the district court are
different, this court must determine de novo that the requirements of section 2255(h) are
satisfied. See In re Moore, 830 F.3d 1268, 1271 (11th Cir. 2016) (“We rejected the
assertion that the district court owes ‘some deference to the court of appeals’ prima
facie finding that the requirements have been met.” (citation omitted)); In re Pendleton,
732 F.3d 280, 283 (3d Cir. 2013) (“However, we stress that our grant is tentative, and
the District Court must dismiss the habeas corpus petition for lack of jurisdiction if it
finds that the requirements for filing such a petition have not been met.”); Johnson v.
United States, 720 F.3d 720, 720–21 (8th Cir. 2013).

A9

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 10 of 57

2.

Second Circuit’s Mandate Authorizing Successive Petition

In this case, the Second Circuit authorized Cruz to “file a § 2255 motion raising
his proposed claim based on Miller v. Alabama.” Mandate of USCA at 1. The Mandate
then directs this court to “address, as a preliminary inquiry under § 2244(b)(4), whether
the United States Supreme Court’s decision in Miller announced a new rule of law made
retroactive to cases on collateral review.”3 Id. The Government argues that the
Mandate only authorizes Cruz to file a successive petition on his claim that Miller
applies to him because he was under the age of 18 at the time of the crime—that is, the
claim rejected by this court in its Ruling on the Motion for a Hearing. See Motion for
Reconsideration (“Mot. for Recons.”) (Doc. No. 94) at 2–3. However, at oral argument
on the Petition before this court, the Government acknowledged that the Mandate is
ambiguous as to the nature of the proposed claim.
Cruz’s Memorandum in Support of Application to File a Second or Successive
Section 2255 Petition, filed before the Second Circuit, is unclear as to the exact nature
of the argument he intended to raise. See Cruz v. United States (Second Circuit Court
of Appeals), No. 13-2457, Memorandum of Law in Support of Application to File a
Second or Successive Section 2255 Petition (“App. to File Successive Pet.”) (Doc. No.
2). However, Cruz does state in the Memorandum that “the case involves conduct that
is open to much speculation and interpretation, in that the charges include juvenile and
non-juvenile conduct.” Id. at 8. He also quotes a case stating that “modern scientific
research supports the common sense notion that 18-20-year-olds tend to be more

3 The Mandate focuses on retroactivity because the Petition was authorized prior to the Supreme
Court’s ruling in Montgomery v. Louisiana, 136 S. Ct. 718 (2016), and likely also because Cruz’s
Memorandum likewise focused on the issue of retroactivity. See App. to File Successive Pet. at 2–8.

A10

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 11 of 57

impulsive than young adults ages 21 and over.” Id. (quoting Nat’l Rifle Assoc. of Am. v.
Bureau of Alcohol, 700 F.3d 185, 209 n.21 (5th Cir. 2012)). Additionally, Cruz states in
a Supplemental Memorandum that his crime involved two predicate acts—“one juvenile
and the other 5 months after Applicant’s 18th birthday.”4 Cruz v. United States (Second
Circuit Court of Appeals), No. 13-2457, Supplementary Papers to Motion for Successive
Petition (Doc. No. 14) at 2. Based on these statements, this court concludes that, when
the Second Circuit authorized Cruz to file a successive petition, it was aware that he
was at least 18 years old during an element of the offense.
Therefore, the court reads the Second Circuit’s Mandate as authorizing this
court’s jurisdiction over both of Cruz’s arguments under Miller. This reading of the
Mandate is especially appropriate because Cruz was proceeding pro se when he
petitioned the Second Circuit for certification to bring his successive petition. The court
must interpret pro se filings liberally “to raise the strongest arguments that they
suggest.” See Willey v. Kirkpatrick, 801 F.3d 51, 62 (2d Cir. 2015). Therefore, the court
liberally reads any ambiguity in Cruz’s filings before the Second Circuit to include the
claim now before the court and reads the Second Circuit’s Mandate to include the claim
now before the court. It will proceed to analyze whether such a claim satisfies the
requirements of section 2255(h).5

Like Cruz’s original Memorandum in Support of Application to File a Successive Petition, the
Supplemental Memorandum is also ambiguous. It does appear to reference the argument that he was
under the age of 18 for one of the predicate acts of the offense. See Cruz v. United States (Second
Circuit Court of Appeals), No. 13-2457, Supplementary Papers to Motion for Successive Petition (Doc.
No. 14) at 2. However, the Supplemental Memorandum does not elaborate the argument with much
clarity, nor is the rest of the Memorandum clear as to whether other arguments are also raised. In the
face of such ambiguity, the court reads Cruz’s pro se filings liberally to raise the strongest arguments that
they suggest, as explained above. See Willey v. Kirkpatrick, 801 F.3d 51, 62 (2d Cir. 2015).
4

Even if Cruz’s Application before the Second Circuit is read not to contain the current claim that
Miller applies to him as an 18-year-old, the court would nonetheless likely proceed to its gate-keeping
5

A11

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 12 of 57

As noted previously, the court makes such a determination de novo. See, e.g.,
In re Moore, 830 F.3d at 1271. Thus, Cruz’s argument that section 2255(h) is satisfied
because “the Second Circuit’s 2013 order is, by now, res judicata” is unavailing. See
Post-Hr’g Reply in Supp. at 2. The Second Circuit’s certification of the Petition under a
prima facie standard does not determine the court’s current, de novo inquiry of whether
the Petition meets the requirements of section 2255(h).
3.

Timeliness

Cruz also argues that the court should reject as untimely the Government’s
argument that section 2255(h) has not been satisfied because the Government failed to
raise the argument at the outset of the case. See Post-Hr’g Reply in Supp. at 1. The
court already addressed the Government’s untimeliness in its prior Ruling. See Ruling
re: Mot. for Recons. at 6–7. The court again reiterates that, by failing to raise this issue
prior to oral argument, the Government “unnecessarily delayed and complexified this

inquiry of whether the claim satisfies the requirements of section 2255(h). By way of comparison, while
Cruz’s current successive petition was pending before this court, Cruz moved for leave before the Second
Circuit to file another successive 2255(h) petition based on Moncrieffe v. Holder, 133 S. Ct. 1678 (2013),
an entirely separate claim unrelated to either of his Miller claims. See Supplemental Memorandum of
Law (Doc. No. 43) at 2; Response to 2255 Motion (Doc. No. 64) at 7. The Second Circuit denied his
motion because it had already granted him leave to file the current petition, which was then already
pending before this court. See Response to 2255 Motion at 7. In doing so, the Second Circuit stated, “If
a § 2255 motion is already pending in district court pursuant to this Court’s authorization under § 2255(h)
motion, the movement [sic] may seek to amend that motion to add claims without first requesting leave of
this Court.” Id. (quoting the Second Circuit).
Therefore, the court considers it likely that, even if it found that Cruz’s current Miller argument
were not included in his Application to File Successive Petition before the Second Circuit, the Second
Circuit would treat this claim in a similar manner as Cruz’s Moncrieffe claim and permit him to seek
permission from this court to include the claim in his Petition without seeking leave from the Circuit. As
such, the court would then proceed to consider whether the claim satisfies the requirements of section
2255(h), leading to the same analysis the court conducts in this Ruling. Therefore, it is not significant to
the outcome of this case whether Cruz’s Memoranda before the Second Circuit expressly included the
current claim or not.

A12

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 13 of 57

proceeding.” Id. at 6. However, the court is not prepared to go so far as to treat the
Government’s untimeliness as a waiver of the argument.
Other district courts in this Circuit have held that a district court lacks subject
matter jurisdiction to rule on the merits of a successive petition under section 2255(h) if
the petition has not been certified by the Court of Appeals according to the procedure
set out in section 2244(b)(3). See Canini v. United States, No. 10 CIV. 4002 PAC, 2014
WL 1664240, at *1 (S.D.N.Y. Apr. 17, 2014); Otrosinka v. United States, No. 12-CR0300S, 2016 WL 3688599, at *3 (W.D.N.Y. July 12, 2016), certificate of appealability
denied, No. 16-2916, 2016 WL 9632301 (2d Cir. Dec. 14, 2016). To that extent, the
requirements of section 2255(h) are jurisdictional and not subject to waiver. Whether
the district court’s responsibility to dismiss a petition certified under section 2244(b)(4) is
also jurisdictional, however, is less clear. One case from the Third Circuit contains
language indicating that section 2244(b)(4) is also jurisdictional. See In re Pendleton,
732 F.3d 280, 283 (3d Cir. 2013) (“[T]he District Court must dismiss the habeas corpus
petition for lack of jurisdiction if it finds that the requirements for filing such a petition
have not been met.” (emphasis added)). Cruz has not pointed the court to any contrary
case in which the Government’s failure to timely raise the issue waived the argument
and absolved the court of its responsibility to dismiss the claim under section
2244(b)(4).
Even if the 2255(h) issue as raised by the government is not jurisdictional, the
court still declines to treat the Government’s tardy raising of the argument as a waiver.
The issue has since been thoroughly briefed by both parties, such that no party has
been prejudiced by the Government’s untimeliness. See Mot. for Recons.; Opposition

A13

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 14 of 57

to Mot. for Recons. (Doc. No. 95); Post-Hr’g Mem. in Opp.; Post-Hr’g Reply in Supp.
Therefore, the court proceeds to consider whether section 2255(h) has been satisfied.
4.

Section 2255(h)(2) in the Miller Context

To find that section 2255(h) has been satisfied, the court must determine that the
Petition contains “a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.” 28 U.S.C. §
2255(h)(2). The Government does not disagree that Miller satisfies these three
requirements. The Supreme Court in Montgomery v. Louisiana held that Miller
establishes a new substantive rule that applies retroactively on collateral review. See
Montgomery, 136 S. Ct. at 734. That rule was previously unavailable to Cruz prior to
the Miller decision in 2012.
However, the Government argues that Miller does not apply to Cruz’s Petition
because the Government reads the “new rule” in Miller to protect only defendants under
the age of 18. See Post-Hr’g Mem. in Opp. at 2–6. According to the Government,
Miller held the following: “We therefore hold that mandatory life without parole for those
under the age of 18 at the time of their crimes violates the Eighth Amendment’s
prohibition on cruel and unusual punishments.” Id. at 3 (emphasis omitted) (quoting
Miller, 567 U.S. at 465). Therefore, the Government argues that Cruz’s Petition does
not rely on Miller, as Miller would not grant him relief as an 18-year-old. See id. at 2–6.
Instead, the Government characterizes Cruz’s Petition as asking the court to create a
new rule expanding Miller, which the Government argues the court cannot do on a 2255
petition. See id.
The threshold inquiry before the court, then, is whether the Petition “contains” the
new rule in Miller, according to the requirement of section 2255(h). This inquiry turns on

A14

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 15 of 57

whether “contains” is read to require a petition to raise the specific set of facts
addressed by the holding in Miller or whether it permits a petition to rely on the principle
of Miller to address a new set of facts not specifically addressed by Miller, but also not
excluded by it. Neither party has pointed the court to any binding case law addressing
what it means for a petition “to contain” a “new rule” of constitutional law.
The Government has, however, identified two cases in which the courts
determined that section 2255(h) did not authorize the filing of a successive petition
under Miller for defendants who were 18 years old or older. See Post-Hr’g Mem. in
Opp. at 5 (citing In re Frank, 690 Fed. App'x 146 (Mem.) (5th Cir. 2017); La Cruz v. Fox,
No. CIV-16-304-C, 2016 WL 8137659, at *6 (W.D. Okla. Dec. 22, 2016), report and
recommendation adopted, No. CIV-16-304-C, 2017 WL 420159 (W.D. Okla. Jan. 31,
2017)). In Frank, the Fifth Circuit declined to certify a petition under section 2255(h)(2)
for a defendant who was 18 and 19 years old at the time of two of the murders for which
he was sentenced to mandatory life without parole. See In re Frank, 690 Fed. App’x at
146. In La Cruz, the district court for the Western District of Oklahoma declined to
transfer the case to the Court of Appeals for the Tenth Circuit to consider whether to
authorize a successive 2255 petition. The court determined that such a transfer would
be futile, as Miller did not apply to the petitioner, who was not under the age of 18 at the
time of his crime. See La Cruz, 2016 WL 8137659, at *6.
The court also located two other cases with a similar outcome. See White v.
Delbalso, No. 17-CV-443, 2017 WL 939020, at *2 (E.D. Pa. Feb. 21, 2017) (finding that
the defendant was not entitled to file a second habeas petition under section 2244(b)(2)
because he was 23 years old at the time of the crime); United States v. Evans, No.

A15

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 16 of 57

2:92CR163-5, 2015 WL 2169503, at *1 (E.D. Va. May 8, 2015) (denying a successive
2255 motion, after certification by the Court of Appeals, because Graham did not apply
to the 18-year-old petitioner).
The court is not bound by these precedents. To the extent that they may serve
as persuasive authority, the court finds them unpersuasive because none of these
opinions discuss what it means for the petition to “contain” a new rule in Miller. The
cases assume, without analysis, that section 2255(h) only permits a petition to directly
apply the holding of Miller. Rather than following such assumptions, this court will
conduct its own analysis of what it means for a petition to “contain” a “new rule” of
constitutional law.
In doing so, the court first notes that the D.C. Circuit reached the opposite
conclusion on this question than the Fifth Circuit did in Frank. See In re Williams, 759
F.3d 66, 70–72 (D.C. Cir. 2014). In Williams, the petitioner was sentenced to life
without parole for his role in a conspiracy to participate in a racketeer influenced corrupt
organization (“RICO”) and to distribute illegal drugs. See id. at 67. Like Cruz, Williams
was a juvenile for the early years of his participation in the conspiracy from 1983 to
1987, but turned 18 in 1987 and continued to participate in the conspiracy until 1991.
See id. Williams moved for authorization to file a successive petition raising claims
under both Miller and Graham v. Florida, 560 U.S. 48, 74 (2010), which held life
imprisonment without parole unconstitutional for juvenile non-homicide offenders. See
id. at 68. The government in Williams argued that “Williams cannot rely on Graham,
and therefore is not entitled to relief on the basis of Graham, because Graham’s holding
does not extend to conspiracies straddling the age of majority.” See id. at 70; see also

A16

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 17 of 57

id. at 71 (making the same argument for Williams’s Miller claim). The D.C. Circuit
rejected the government’s argument, however, and granted certification on both claims.
See id. at 70–72.
In doing so, the D.C. Circuit reasoned that the government’s argument “goes to
the merits of the motion, asking us in effect to make a final determination of whether the
holding in Graham will prevail for Williams.” Id. at 70. As such, the D.C. Circuit held
that such an argument was not an appropriate inquiry for the court to consider in
deciding whether the petitioner had made a prima facie case that the petition “contain[s]
. . . a new rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable.” See id. The court finds the D.C.
Circuit’s approach in Williams more persuasive than the Fifth Circuit’s approach in
Frank because Williams expressly considers what it means for a petition to “rely on” a
new rule and articulates its reasons for certifying the position.
As none of these cases are binding on this court, however, the court does not
end its inquiry here, but also considers other cases reviewing successive habeas
petitions based on other “new rules” of constitutional law beyond Miller, to the extent
that those cases offer guidance in interpreting the requirements of section 2255(h).
5.

Analogous Interpretation of Section 2255(h) from Cases Under
Johnson v. United States

Thus, in addition to Williams, the court looks to an analogous situation in which
courts have considered the meaning of section 2255(h), that is, in the context of
successive habeas petitions following Johnson v. United States, 135 S. Ct. 2551 (2015).
While these cases consider a different “new rule” than the one contained in Miller, the
circuits in the Johnson context have more thoroughly engaged with the meaning of

A17

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 18 of 57

section 2255(h)’s requirement that the petition “contain” a new rule and therefore
provide relevant guidance to the court’s analysis here.6 Before addressing the circuits’
various interpretations of section 2255(h), the court first briefly explains the context in
which the question arises in the Johnson context.
In Johnson, the Supreme Court held “that imposing an increased sentence under
the residual clause of the Armed Career Criminal Act [(“ACCA”)] violates the
Constitution’s guarantee of due process.” Johnson, 135 S. Ct. at 2563. The Supreme
Court then held that Johnson announced a new substantive rule that applies
retroactively in cases on collateral review. See Welch v. United States, 136 S. Ct. 1257,
1265 (2016). Following Johnson and Welch, Courts of Appeals were faced with
applications to file successive petitions under section 2255, seeking relief from
sentences determined under the residual clause of section 4B1.2 of the Sentencing
Guidelines. That section was not itself addressed by Johnson, but contains similar

6 At oral argument, the Government argued that the Johnson line of cases is distinguishable from
the Miller context. The Government argued that, because the language of the residual clause of the
Armed Career Criminal Act (“ACCA”) is nearly identical to the language of the residual clause in the
Sentencing Guidelines, applying the rule in Johnson to petitions based on the Sentencing Guidelines is
different than applying the rule in Miller to petitions of defendants who were 18 years old at the time of
their crimes.

The court, however, does not consider this distinction significant. Just as Miller said nothing
about defendants who were 18 years old at the time of the crime, Johnson says nothing about the
Sentencing Guidelines. Thus, like Cruz’s Petition here, successive 2255(h) petitions seeking to rely on
Johnson to vacate convictions under the Sentencing Guidelines require the courts to consider whether
section 2255(h) is limited to petitions raising the specific set of facts addressed in Johnson or whether it
permits petitions to rely on the rule of Johnson to address a new set of facts not specifically addressed by
that case. Cases considering that question provide relevant guidance for this court’s inquiry because
they address the meaning of the statutory words “to contain” in section 2255(h), which should maintain
the same meaning regardless of the content of the new rule of constitutional law at issue.
Additionally, the court notes that, even if the analogy between the Johnson and Miller contexts for
considering the section 2255(h) requirements is not perfect, there is no binding Second Circuit precedent
indicating how the court should interpret section 2255(h) in the context of Miller. In such a situation, the
court finds it helpful to consider persuasive authority interpreting the statute at issue, even in different
contexts, in order to best anticipate how the Second Circuit would decide the question before the court.

A18

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 19 of 57

language to the residual clause of the ACCA that was held to be unconstitutionally
vague in Johnson. See, e.g., Blow v. United States, 829 F.3d 170, 172–73 (2d Cir.
2016), as amended (July 29, 2016); In re Hubbard, 825 F.3d 225, 235 (4th Cir. 2016); In
re Arnick, 826 F.3d 787, 788 (5th Cir. 2016); In re Patrick, 833 F.3d 584, 588–89 (6th
Cir. 2016); In re Embry, 831 F.3d 377, 379, 382 (6th Cir. 2016); Donnell v. United
States, 826 F.3d 1014, 1015–17 (8th Cir. 2016); In re Encinias, 821 F.3d 1224, 1226
(10th Cir. 2016); In re McCall, 826 F.3d 1308, 1309 (11th Cir. 2016).
Analogous to the case here, those cases required the circuit courts to consider
whether a successive petition under section 2255(h)(2) “contains” a new rule of
constitutional law only when the petition involved the same statute as the holding in
Johnson, or also when it relied on Johnson as applied to similar language in another
statute. On this question, the circuits split. Compare Blow, 829 F.3d at 172–73
(certifying the successive petition and holding it in abeyance pending the Supreme
Court’s decision in Beckles v. United States, 137 S. Ct. 886 (2017)); In re Hubbard, 825
F.3d at 235 (certifying the successive petition); In re Patrick, 833 F.3d at 588 (same); In
re Encinias, 821 F.3d at 1226 (same); with In re Arnick, 826 F.3d at 788 (denying the
application to file a successive petition); Donnell, 826 F.3d at 1017 (same); In re McCall,
826 F.3d at 1309 (same).
In 2016, the Supreme Court in Beckles v. United States held that the rule in
Johnson did not apply to the Sentencing Guidelines, as made advisory by United States
v. Booker, 543 U.S. 220, 233 (2005). See Beckles, 137 S. Ct. at 890. The Beckles
Court held that the advisory Sentencing Guidelines are not subject to vagueness
challenges under the Due Process Clause, but did not reach the question of whether

A19

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 20 of 57

the Sentencing Guidelines, as applied mandatorily prior to Booker, could be subject to
such a challenge under Johnson. See id. Notably, because Beckles was decided on
certiorari from a first petition under section 2255, not a second or successive petition
implicating section 2255(h), see id. at 891, the Court did not address whether the
circuits that certified successive petitions under Johnson had correctly interpreted
section 2255(h).
As a result, after Beckles, the circuits faced similar applications to file successive
petitions under section 2255(h), seeking relief under Johnson from sentences imposed
when the Sentencing Guidelines were mandatory. The circuits have again split on
whether authorizing such petitions would be an appropriate application of section
2255(h)(2). Compare Moore v. United States, 871 F.3d 72, 74 (1st Cir. 2017) (certifying
the successive petition); In re Hoffner, 870 F.3d 301, 309–12 (3d Cir. 2017) (same);
Vargas v. United States, No. 16-2112, 2017 WL 3699225, at *1 (2d Cir. May 8, 2017)
(certifying the successive petition and directing the district court to consider staying the
proceeding pending the Supreme Court’s decision in Lynch v. Dimaya, 137 S. Ct. 31
(Mem.) (2016)); with Mitchell v. United States, No. 3:00-CR-00014, 2017 WL 2275092,
at *4–*5, *7 (W.D. Va. May 24, 2017) (dismissing the petition as failing to satisfy the
requirements of section 2255(h)); United States v. Gholson, No. 3:99CR178, 2017 WL
6031812, at *3 (E.D. Va. Dec. 5, 2017) (denying the petition as barred by section
2255(h)).

A20

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 21 of 57

This court looks to these cases addressing Johnson as instructive for analyzing
the reach of section 2255(h).7 In the absence of binding precedent reviewing district
court decisions made in the court’s current posture, the reasoning of the circuit courts in
deciding certification can provide relevant guidance in interpreting the meaning of
section 2255(h) before this court. The court briefly summarizes below the interpretation
and analysis of each side of the circuit split.
The most thorough analysis in favor of reading 2255(h) broadly is found in the
Third Circuit case of In re Hoffner. In Hoffner, the Third Circuit interpreted section
2255(h), which requires that the claim “contain” a new rule of constitutional law,” in
accordance with the Supreme Court’s reading of similar language in section
2244(b)(2)(A), which requires that the claim “relies on a new rule of constitutional law.”
See In re Hoffner, 870 F.3d at 308 (quoting Tyler v. Cain, 533 U.S. 656, 662 (2001)). In
interpreting “relies on,” the Third Circuit held that “whether a claim ‘relies’ on a qualifying
new rule must be construed permissively and flexibly on a case-by-case basis.” Id.
At a policy level, the court reasoned that construing the new rule flexibly
advances “the need to meet new circumstances as they rise and the need to prevent
injustice,” which it concluded are particularly salient concerns in the context of a section
2255(h)(2) motion dealing with new substantive rules addressing the potential injustice
of an unconstitutional conviction or sentence.8 Id. at 309. Additionally, Hoffner cites

7

In doing so, the court recognizes that its task requires a higher bar than that of the Court of
Appeals because this court must determine that the requirements of section 2255(h) are actually met, not
merely that the Petition has put forth a prima facie showing.
8 The Hoffner court additionally made pragmatic arguments based on the prima facie standard of
the Court of Appeals’ inquiry and the protections of a fuller exploration by the district court. See In re
Hoffner, 870 F.3d at 308–09. This court acknowledges that these arguments are irrelevant to its current
inquiry due to the different standard and posture of the Court of Appeals’ inquiry, but the court does not

A21

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 22 of 57

Montgomery for the proposition that the state’s countervailing interest in finality is not
implicated in habeas petitions that retroactively apply substantive rules. See id.
(quoting Montgomery, 136 S. Ct. at 732 (noting that “the retroactive application of
substantive rules does not implicate a State’s weighty interests in . . . finality”)).
Accordingly, the Hoffner court describes its reading of section 2255(h) as follows:
[A] motion relies on a qualifying new rule where the rule
substantiates the movant’s claim. This is so even if the rule
does not conclusively decide [ ] the claim or if the petitioner
needs a non-frivolous extension of a qualifying rule. Section
2255(h)(2) does not require that qualifying new rule be the
movant’s winning rule, but only that the movant rely on such
a rule.
Id. (internal quotation marks and citations omitted) (quoting In re Arnick, 826 F.3d at 789
(5th Cir. 2016) (Elrod, J., dissenting)).
The Third Circuit then concludes that the question of whether the new rule
applies to the facts in the specific case is not part of the preliminary, gate-keeping
inquiry under section 2255(h), but is instead a “merits question for the district court to
answer in the first instance.” Id. at 310–11 (emphasis added). In this way, the Third
Circuit agrees with the D.C. Circuit’s decision in Williams discussed previously. See In
re Williams, 759 F.3d at 70–72. To support its distinction between the preliminary, gatekeeping inquiry and the merits question, the Hoffner court further draws support from
other circuits that have likewise certified successive petitions in analogous situations by
finding that whether the rule applies to the facts is a merits question. See In re Hoffner,
870 F.3d at 310–11 (citing In re Pendleton, 732 F.3d 280, 282 n.1 (3d Cir. 2013); In re

consider these arguments to undermine the rest of the Third Circuit’s analysis, which is relevant to this
court’s inquiry into the meaning of section 2255(h)(2).

A22

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 23 of 57

Sparks, 657 F.3d 258, 260 n.1 (5th Cir. 2010); In re Williams, 759 F.3d at 70–72); see
also In re Hubbard, 825 F.3d at 231; United States v. Garcia-Cruz, No. 16CV1508MMA, 2017 WL 3269231, at *3–*4 (S.D. Cal. Aug. 1, 2017) (finding that the petitioner
had satisfied the “statutory prerequisite for filing a second or successive motion” under
section 2255, but denying the motion on the merits).9
In line with the Third Circuit’s analysis, the First Circuit reasoned in Moore v.
United States that Congress used the words “rule” and “right” in section 2255 rather
than the word “holding” for a reason:
Congress presumably used these broader terms because it
recognizes that the Supreme Court guides the lower courts
not just with technical holdings but with general rules that are
logically inherent in those holdings, thereby ensuring less
arbitrariness and more consistency in our law.
Moore, 871 F.3d at 82. Therefore, the Moore court held that, while the “technical
holding” of Johnson was that the residual clause in the ACCA is unconstitutionally
vague, the “new rule” it established was broader than that and “could be relied upon
directly to dictate the striking of any statute that so employs the ACCA’s residual clause
to fix a criminal sentence.” Id. In so distinguishing the new rule from the holding,
Moore supports the Third Circuit’s broader reading of section 2255(h).
Additionally, the Tenth Circuit in In re Encinias considered and rejected the
government’s argument that the petition challenging the Sentencing Guidelines relied
not on Johnson, but on a later Tenth Circuit decision applying Johnson to the

9 The Government argues to the contrary that whether Miller applies to Cruz is a preliminary gatekeeping question that should be decided under the requirements of section 2255(h). See Post-Hr’g Mem.
in Opp. at 2–6. However, if the gate-keeping inquiry under section 2255(h) includes whether the new rule
of constitutional law applies to the petitioner, there would often likely remain no issue to be decided on the
merits.

A23

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 24 of 57

Guidelines. See In re Encinias, 821 F.3d at 1225–26. The Tenth Circuit concluded that
the petition was “sufficiently based on Johnson to permit authorization under §
2255(h)(2)” because of “the similarity of the clauses addressed in the two cases and the
commonality of the constitutional concerns involved.” Id. at 1226. Not restricting
section 2255(h) to Johnson’s narrow holding, the Tenth Circuit granted the certification
and stated, “[A]lthough the immediate antecedent for Encinias’ challenge to the careeroffender Guideline is our decision in Madrid, that decision was based, in turn, on the
seminal new rule of constitutional law recognized in Johnson and now made retroactive
to collateral review by Welch.” Id. at 1225–26.
The court recognizes, however, that the answer to the question before it is, as
with many issues of statutory construction, not clear cut. The clearest contrary
argument for reading section 2255(h) narrowly is found in the Eighth Circuit’s decision in
Donnell v. United States. Donnell held that “to contain” in section 2255(h) means that
“the new rule contained in the motion must be a new rule that recognizes the right
asserted in the motion.” Donnell, 826 F.3d at 1016. In the Eighth Circuit’s view, mere
citation of a new rule without such a nexus to the right would be insufficient. See id.
Like the Third Circuit in In re Hoffner, the Eighth Circuit in Donnell also reasons from
context that section 2255(h)(2) should be read to be consistent with section
2244(b)(2)(A), which requires that the claim “relies on” a new rule. See id. However,
the Donnell court adopts a narrower interpretation of the words “relies on” than the
approach endorsed by the Hoffner court. Compare Donnell, 826 F.3d at 1016–17; with
In re Hoffner, 870 F.3d at 309. The Donnell court concludes that the claim cannot
depend on the district court’s creation of a second new rule different from that

A24

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 25 of 57

specifically articulated by the Supreme Court. See id. The Eighth Circuit states that the
new rule created by Johnson “must be sufficient to justify a grant of relief” and cannot
“merely serve[ ] as a predicate for urging adoption of another new rule that would
recognize the right asserted by the movant.” Id. at 1017.
The Sixth Circuit in In re Embry recognized a similar logic and looked to Teague
v. Lane, 489 U.S. 288 (1989), to determine whether the petition relies on a new rule
recognized by the Supreme Court or requires the district court to create a second new
rule. See In re Embry, 831 F.3d at 379. A “new rule” is one that is “not dictated by
precedent.” Id. (quoting Teague, 489 U.S. at 301). “A rule is not dictated by precedent
. . . unless it is ‘apparent to all reasonable jurists.’” Id. (quoting Chaidez v. United
States, 133 S. Ct. 1103, 1107 (2013)). Therefore, a rule is a new rule “unless all
reasonable jurists would adopt the rule based on existing precedent.” Id. (internal
quotation marks omitted).10 On the other hand, “a case does not announce a new rule,
when it is merely an application of the principle that governed a prior decision to a
different set of facts.” Id. (quoting Chaidez, 133 S. Ct. at 1107).
Like the Sixth Circuit, the Government at oral argument urged this court to look to
Teague in interpreting the requirements of section 2255(h). While there is no question
that Teague is binding on this court, Teague does not address the issue currently before

10

The Supreme Court has clarified, however, that the mere existence of disagreement does not
necessarily indicate that the rule is new. See Beard v. Banks, 542 U.S. 406, 416 n.5 (2004) (“Because
the focus of the inquiry is whether reasonable jurists could differ as to whether precedent compels the
sought-for rule, we do not suggest that the mere existence of a dissent suffices to show that the rule is
new.” (emphasis in original)); id. at 423 (Souter, J., dissenting) (noting that the majority acknowledges
that the all-reasonable-jurists standard “is objective, so that the presence of actual disagreement among
jurists and even among Members of this Court does not conclusively establish a rule’s novelty”); see also
Moore, 871 F.3d at 81 (“In fact, it would not necessarily be a new rule of constitutional law even if we did
disagree on the constitutional issue.” (citing Beard, 542 U.S. at 416 n.5)).

A25

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 26 of 57

the court. Teague enunciated the above definition of a “new rule” in the context of
determining whether a new rule should be applied retroactively on collateral review.
See Teague, 489 U.S. at 301. Teague does not address the question of whether a
successive habeas petition “contains” or “relies on” a new rule for the purposes of
satisfying the requirements of section 2255(h). Rather, it is the Sixth Circuit in Embry
and the Eighth Circuit in Donnell that read the section 2255(h) inquiry to require courts
to determine whether the petition asks the district court to recognize “a ‘new rule’ of its
own.” See In re Embry, 831 F.3d at 379; Donnell, 826 F.3d at 1017. Unlike Teague,
Embry and Donnell are not binding on this court.11
Additionally, the language in Embry indicating that courts should determine
whether a petition requires a second new rule is dicta. The Sixth Circuit articulated that
reasoning, but declined to so hold. See id. at 381. Instead, the court granted Embry’s
application to file a successive petition and instructed the district court to hold the
petition in abeyance, pending the Supreme Court’s then-anticipated decision in Beckles.
See id. at 382. The Sixth Circuit did so in part because it recognized that “[t]he inquiry
is not an easy one.” Id. at 379. The Sixth Circuit stated, “When it comes to deciding
whether Embry has made a prima facie showing of a right to relief, there are two sides
to this debate, each with something to recommend it.” Id.
6.

Interpretation of Section 2255(h) and Application to This Case

This court likewise acknowledges that the question of which of the above two
approaches correctly interprets the requirements of section 2255(h) is a difficult one,

If, of course, Donnell had been a Second Circuit opinion, the court’s duty to address the difficult
question now before it would have been easy.
11

A26

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 27 of 57

and one on which the Supreme Court has not yet spoken.12 In the absence of
additional guidance, however, this court finds persuasive the Third Circuit’s reading of
section 2255(h) and applies in this case its approach to determining whether Cruz’s
petition contains the new rule enunciated by Miller for the following reasons.13
First, the court considers the Third Circuit’s approach in Hoffner to be more
supported by the statutory text. The text of section 2255(h) contains only three
prerequisites and does not expressly require that the court additionally “scrutinize a
motion to see if it would produce a second new rule.” In re Hoffner, 870 F.3d at 311
(internal quotation marks omitted). The court agrees with the First Circuit in Moore that
Congress’s use of “rule” rather than “holding” indicates that it did not intend to limit the
reach of the phrase “new rule” required by section 2255(h)(2) strictly to a case’s
“technical holding.” See Moore, 871 F.3d at 82. The words “new rule” must then be
read “in their context and with a view to their place in the overall statutory scheme.”
See Food & Drug Admin. V. Brown & Williamson Tobacco Corp., 529 U.S. 120, 133

12

The Supreme Court has granted certiorari in the case of Lynch v. Dimaya. See Lynch v.
Dimaya, 137 S. Ct. 31 (Mem.) (2016). In Lynch, the Supreme Court will decide whether the residual
clause of 18 U.S.C. § 16(b), using language similar to that struck down by Johnson in the ACCA, is
unconstitutionally vague. See Dimaya v. Lynch, 803 F.3d 1110, 1111 (9th Cir. 2015).
While this decision may add clarity to the circuit split discussed above, it will do so by resolving
the merits issue, not by determining the correct approach to section 2255(h). Lynch reaches the
Supreme Court on certiorari from an appeal of a decision by the Board of Immigration Appeals, not on a
successive habeas petition under section 2255. See id.
13

Again, the court recognizes that its responsibility to review the requirements of section 2255(h)
requires it to apply a higher standard than the prima facie showing required of the Court of Appeals in
certifying a successive petition. See, e.g., Ferranti, 2010 WL 307445, at *10. Therefore, the court
acknowledges that these circuit precedents considering certification are imperfect guides for the court’s
current inquiry under section 2255(h). However, because there is no binding precedent reviewing a
district court’s assessment of the section 2255(h) requirements, the court nonetheless looks to these
certification cases as persuasive authority. As such, the court looks to the Court of Appeals cases
discussed above for guidance in interpreting the language of section 2255(h). See, e.g., In re Moore, 830
F.3d at 1271.

A27

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 28 of 57

(2000). The Sixth Circuit in Embry fails to do this when it focuses exclusively on the
words “new rule” without engaging with the meaning of the rest of the sentence, which
requires the petition “to contain” the new rule or, as in section 2244, to “rely on” the new
rule. The court agrees with the Third Circuit that the meaning of “contain” requires the
petition to rely on the new rule to substantiate its claim, but does not require the new
rule to conclusively decide the claim on its facts. See In re Hoffner, 870 F.3d at 309.
Second, the court considers the Hoffner approach to be more consistent with the
purposes of the Great Writ. “It (the Great Writ) is not now and never has been a static,
narrow, formalistic remedy; its scope has grown to achieve its grand purpose—the
protection of individuals against erosion of their right to be free from wrongful restraints
upon their liberty.” Schlanger v. Seamans, 401 U.S. 487, 491 n.5 (1971). Thus, in the
Supreme Court’s decisions “construing the reach of the habeas statutes,” “[t]he Court
uniformly has been guided by the proposition that the writ should be available to afford
relief to those ‘persons whom society has grievously wronged’ in light of modern
concepts of justice” and “has performed its statutory task through a sensitive weighing
of the interests implicated by federal habeas corpus adjudication of constitutional
claims.” Kuhlmann v. Wilson, 477 U.S. 436, 447–48 (1986). While the Antiterrorism
and Effective Death Penalty Act has narrowed the scope of the writ, the court agrees
with the Third Circuit’s weighing of the interests. In the context of retroactive application
of a substantive rule, the state’s countervailing interest in finality is less compelling, and
the purpose of the Great Writ in preventing unjust confinement tips the scales in favor of
a less narrow reading of section 2255(h). See In re Hoffner, 870 F.3d at 309 (citing
Montgomery, 136 S. Ct. at 732).

A28

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 29 of 57

Finally, in interpreting section 2255(h), this court seeks to anticipate how the
Second Circuit would decide the issue. The Second Circuit cases addressing
successive habeas petitions under Johnson did not address the question to the same
analytical extent as the Third, Eighth, or Sixth Circuits. In two instances, however, the
Second Circuit granted the application to file the successive petition and instructed the
district court to consider staying the proceedings pending a Supreme Court decision in a
potentially relevant case. See Blow, 829 F.3d at 172–73; Vargas, 2017 WL 3699225, at
*1. Although the Second Circuit’s order to stay the proceedings makes the import of
these cases less compelling, such an outcome is certainly more in line with the reading
of section 2255(h) adopted by the Third Circuit in Hoffner than by that of the Eighth or
Sixth Circuits in Donnell or Embry.
Additionally, the Second Circuit denied certification to file a successive petition in
Jackson v. United States and, in doing so, reasoned:
Johnson does not support Petitioner’s claim because he was
not convicted under the statute involved in Johnson, 18
U.S.C. § 924(e), and he has not made a showing that any of
the statutes under which he was convicted and sentenced
contains language similar to the statutory language found
unconstitutional in Johnson.
Jackson v. United States, No. 3:14-CV-00872-JCH, Mandate from USCA (Doc. No. 16)
at 1–2. The second half of the above sentence implies that the Second Circuit would
have considered certification appropriate if the petitioner had identified such a statute.
This indicates that the Second Circuit does not read section 2255(h) as limited to the
holding in Johnson. As such, the Mandate in Jackson is again more consistent with the
Third Circuit’s interpretation of section 2255(h) in Hoffner than the interpretations of the
Eighth or Sixth Circuits in Donnell or Embry.

A29

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 30 of 57

For all of the above reasons, the court interprets section 2255(h) using the
approach articulated by the Third Circuit. Applying that reading of section 2255(h) to
this case, the court finds that Cruz has satisfied the requirements for filing a successive
petition.14 See In re Hoffner, 870 F.3d at 308. As noted above, Miller is a “new rule of
constitutional law, made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable.” See 28 U.S.C. § 2255(h)(2); Montgomery, 136 S. Ct.
at 734. Cruz’s Petition “contains” and “relies on” Miller because Miller “substantiates
[his] claim.” See In re Hoffner, 870 F.3d at 309. Even if Cruz’s claim may require a
“non-frivolous extension of [Miller’s] qualifying rule” to a set of facts not considered by
the Miller Court, see id., his claim, nonetheless, depends on the rule announced in
Miller. Miller’s holding applies to a defendant under the age of 18, but the principle
underlying the holding is more general: “[T]he Eighth Amendment forbids a sentencing
scheme that mandates life in prison without possibility of parole for juvenile offenders.”
Miller, 567 U.S. at 479. Thus, who counts as a “juvenile” and whether Miller applies to
Cruz as an 18-year-old are better characterized as questions on the merits, not as
preliminary gate-keeping questions under section 2255(h).

14

The court acknowledges that, in its previous Orders and Rulings, it used the language of
“expanding” Miller, rather than “containing” or “relying on” the new rule in Miller. See, e.g., Order on
Motion for Appointment of Counsel (Doc. No. 20) at 3 (“Counsel shall file a federal habeas motion and
supporting memorandum . . . addressing whether Miller . . . may be expanded to apply to those who were
over the age of 18 at the time of their crimes . . . .”); Ruling re: Mot. for Hearing at 23 (“Cruz argues that
Miller’s protection should be expanded to individuals who were under 21 at the time they committed their
crimes.”). The court does not, however, consider itself bound in this current Ruling by its less-thanthoughtful choice of language in prior Rulings, which could admittedly have been the result of sloppy
drafting. At the time of the Order and Ruling cited above, the court was not considering the issue of
whether Cruz’s Petition “relied on” the new rule in Miller and therefore may have been less mindful of its
choice of language in that regard.

A30

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 31 of 57

B.

Miller’s Application to 18-Year-Olds

Having found that Cruz has satisfied the requirements of section 2255(h), the
court now turns to the merits of Cruz’s Petition. Cruz asks the court to apply the new
rule in Miller to his case, arguing that the national consensus disfavors applying
mandatory life imprisonment without parole to 18-year-olds and that the science
indicates that the same indicia of youth that made mandatory life imprisonment without
parole unconstitutional for those under the age of 18 in Miller also applies to 18-yearolds.
Before the court addresses the evidence of national consensus and scientific
consensus, it first considers a preliminary argument raised by the Government. The
Government argues that the court is prevented from applying Miller to an 18-year-old
because it must follow the Supreme Court’s binding precedents. See Post-Hr’g Mem. in
Opp. at 6–8. It goes without saying that the court agrees that it is bound by Supreme
Court precedent. However, it does not consider application of Miller to an 18-year-old to
be contrary to Supreme Court (or Second Circuit) precedent.
As noted previously, Miller states, “We therefore hold that mandatory life without
parole for those under the age of 18 at the time of their crimes violates the Eighth
Amendment’s prohibition on ‘cruel and unusual punishments.’” Miller, 567 U.S. at 465.
The court does not infer by negative implication that the Miller Court also held that
mandatory life without parole is necessarily constitutional as long as it is applied to
those over the age of 18. The Miller opinion contains no statement to that effect.
Indeed, the Government recognizes that, “The Miller Court did not say anything about
exceptions for adolescents, young adults, or anyone else unless younger than 18.”
Post-Hr’g Mem. in Opp. at 8. Nothing in Miller then states or even suggests that courts

A31

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 32 of 57

are prevented from finding that the Eighth Amendment prohibits mandatory life without
parole for those over the age of 18. Doing so would rely on and apply the rule in Miller
to a different set of facts not contemplated by the case, but it would not be contrary to
that precedent.15
Such a reading of Miller is consistent with the Supreme Court’s traditional
“reluctance to decide constitutional questions unnecessarily.” See Bowen v. United
States, 422 U.S. 916, 920 (1975). In Miller, it was unnecessary for the Court to address
the constitutionality of mandatory life imprisonment for those over the age of 18
because both defendants in Miller were 14 years old. See Miller, 567 U.S. at 465.
Therefore, the question of whether mandatory life imprisonment without parole is
constitutional for an 18-year-old was not before the Court in Miller, and it would be
contrary to the Court’s general practice to opine on the question unnecessarily.
The Government argues nonetheless that Miller drew a bright line at 18 years
old, which prevents this court from applying the rule in Miller to an 18-year-old. See
Post-Hr’g Mem. in Opp. at 8; see also Roper v. Simmons, 543 U.S. 551, 574 (2005)
(recognizing that the line may be over- and under-inclusive, but stating nonetheless that
“a line must be drawn”). However, in so arguing, the Government fails to recognize that
there are different kinds of lines. By way of illustration, in Thompson v. Oklahoma, 487
U.S. 815 (1988), the Supreme Court held that the death penalty was unconstitutional for

15

The Government argues that the court should not deviate from the bright line drawn in Miller at
age 18, “even where it believe[s] that the underlying rationale of that precedent ha[s] been called into
question by subsequent cases.” Post-Hr’g Mem. in Opp. at 6–7 (citing, inter alia, Agostini v. Felton, 521
U.S. 203, 237–38 (1997)). Distinct from this case, however, Agostini involved Supreme Court precedent
that “directly control[led]” the case. See Agostini, 521 U.S. at 237. As noted above, Miller does not hold
that mandatory life imprisonment without parole is constitutional as long as it is applied to those over the
age of 18.

A32

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 33 of 57

offenders under the age of 16. Id. at 838. It was not until Stanford v. Kentucky, 921
U.S. 361 (1989), rev’d by Roper, 543 U.S. at 574, however, that the Supreme Court
held that the Eighth Amendment did not prohibit the execution of offenders ages 16 to
18. Id. at 380. In Stanford, the Court did not say that the ruling it set forth was found in
the Thompson holding. Indeed, Stanford was not redundant of Thompson because the
line drawn in Thompson looked only in the direction of offenders under the age of 16
and found them to be protected by the Eighth Amendment. Thompson’s line did not
simultaneously apply in the other (i.e. older) direction to prohibit the Eighth Amendment
from protecting those over the age of 16. In contrast, Stanford’s line did.
This distinction between the type of line drawn in Thompson and the type of line
drawn in Stanford is reflected in the difference in the Supreme Court’s treatment of
these two cases in Roper v. Simmons. In deciding that the death penalty was
unconstitutional as applied to offenders under the age of 18, the Roper Court
considered itself to be overturning Stanford, but not Thompson. Compare Roper, 543
U.S. at 574 (“Stanford v. Kentucky should be deemed no longer controlling on this
issue.”); with id. (“In the intervening years the Thompson plurality’s conclusion that
offenders under 16 may not be executed has not been challenged. The logic of
Thompson extends to those who are under 18.”). If the Government’s argument that
the line drawn in Miller prevents this court from applying its rule to an 18-year-old were
correct, the same logic applied to the line drawn in Thompson would have required
Roper to overturn Thompson rather than relying on and endorsing it. The language in
Roper, however, makes clear that the court endorsed, rather than overturned,
Thompson. See Roper, 543 U.S. at 574.

A33

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 34 of 57

In drawing the line at 18, then, Roper, Graham, and Miller drew lines similar to
that in Thompson, protecting offenders that fall under the line while remaining silent as
to offenders that fall above the line. In the case of mandatory life imprisonment without
parole, no Supreme Court precedent draws a line analogous to that in Stanford.
Therefore, while this court recognizes that it is undoubtedly bound by Supreme Court
precedent, it identifies no Supreme Court precedent that would preclude it from applying
the rule in Miller to an 18-year-old defendant.
The Government also points in its Memorandum to a number of cases in which
courts, faced with the question of applying Miller to defendants ages 18 or over,
declined to do so. See Post-Hr’g Mem. in Opp. at 8–9, 10 n.1 (citing, inter alia, United
States v. Marshall, 736 F.3d 492, 498 (6th Cir. 2013); Cruz v. Muniz, No. 2:16-CV00498, 2017 WL 3226023, at *6 (E.D. Cal. July 31, 2017); Martinez v. Pfister, No. 16CV-2886, 2017 WL 219515, at *5 (N.D. Ill. Jan. 19, 2017); Meas v. Lizarraga, No. 15CV-4368, 2016 WL 8451467, at *14 (C.D. Cal. Dec. 14, 2016); Bronson v. Gen.
Assembly of State of Pa., No. 3:16-CV-00472, 2017 WL 3431918, at *5 (M.D. Pa. July
17, 2017); White v. Delbalso, No. 17-CV-443, 2017 WL 939020, at *2 (E.D. Pa. Feb. 21,
2017)). The Government argues that this court should do the same.
In response, Cruz offers a number of reasons for distinguishing those cases from
his, including that some of the cases cited by the Government did not involve mandatory
life without parole, some involved defendants over the age of 21, and all but one did not
involve expert testimony.16 See Post-Hr’g Reply in Supp. at 6–7. While the court is

16 The one case that Cruz identifies as including expert testimony is United States v. Marshall,
736 F.3d 492 (6th Cir. 2013). See Post-Hr’g Reply in Supp. at 6–7. The expert testimony in Marshall,
however, was substantially different from the expert testimony before this court, as the testimony in
Marshall did not focus on the science of typical adolescent brain development. Although the expert in

A34

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 35 of 57

cautious in disagreeing with these other courts, it agrees with Cruz that very few of the
courts that declined to apply Miller to 18-year-olds had before them a record of scientific
evidence comparable to the one that this court now has before it. As to the few courts
that did consider scientific evidence on adolescent brain development and nonetheless
declined to apply Miller,17 this court respectfully acknowledges those decisions to the

that case did testify that “the adolescence period does not end at 18 but actually extends into an
individual’s mid-20s,” id. at 496, his testimony did not focus on the scientific evidence of development in
typical 18-year-olds. Rather, the expert’s testimony focused on a condition unique to the defendant in
Marshall called Human Growth Hormone Deficiency, which “basically prevents maturation.” See id.
Therefore, the defendant in Marshall argued that his condition made him different from others who shared
his chronological age. See id. at 497 (describing the defendant’s developmental delay as “unique”). He
was not arguing that 18-year-olds generally present the same hallmark characteristics of youth as 17year-olds, as Cruz is arguing here. Thus, while the Marshall court considered expert testimony, it did not
consider expert testimony comparable to that presented by Dr. Steinberg before this court.
17 The court notes three cases cited by the Government that do consider scientific evidence. The
petitioner in White v. Delbaso argued that “validated science and social science adopted by the high court
has established that the human brain continues to develop well into early adulthood, specifically until the
age of 25,” but the district court for the Eastern District of Pennsylvania rejected such an argument and
found that the petitioner was not entitled to file a second habeas petition based on Miller. See White v.
Delbalso, No. 17-CV-443, 2017 WL 939020, at *2 (E.D. Pa. Feb. 21, 2017). That case differs from Cruz’s
in two key respects. First, the petitioner in White was 23 years old at the time of his crime, while Cruz
was 5 months past his 18th birthday. As noted by the scientific evidence discussed in this Ruling, the
evidence of continued development is stronger for 18-year-olds than it is for 23-year-olds. See Steinberg
Tr. at 70–71 (indicating that he is “[a]bsolutely certain” that the scientific conclusions concerning juveniles
also apply to 18-year-olds, but not as confident about 21-year-olds). Second, the court in White notes
that the petitioner made an argument based on “validated science and social science,” but does not
discuss whether such evidence was presented to the court. Therefore, the court is unable to compare the
depth or robustness of the evidence considered in White, if any.

At oral argument, the Government also cited two additional cases in which scientific evidence of
adolescent brain development was presented. The Government noted that, in Adkins v. Wetzel, the
petitioner cited to Dr. Steinberg’s research to support the petitioner’s argument that Miller’s protections
should apply to him despite the fact that he was 18 years old at the time of his underlying offenses. See
Adkins v. Wetzel, No. 13-3652, 2014 WL 4088482, at *3–*4 (E.D. Pa. Aug. 18, 2014). The opinion states:
In his habeas petition, he asserted that convicted eighteen year olds are
similarly situated to younger teenagers because the frontal lobes of their
brains are still developing. (Doc. No. 1 at 7) (citing Laurence Steinberg &
C. Monahan, Age Differences in Resistance to Peer Influence, 43
Developmental Psychology 1531 (2007)). Likewise, in his objections,
Petitioner contends that at the time of the underlying offenses, he
suffered from the same diminished culpability as teenagers under the
age of eighteen. (Doc. No. 26 at 25.) Petitioner did not submit any
evidence in support of these arguments.

A35

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 36 of 57

extent that they constitute persuasive authority, but recognizes its duty to decide this
case on the law and record now before this court.18
The court now turns to the evidence presented by Cruz and the standard of cruel
and unusual punishment under the Eighth Amendment. The Eighth Amendment’s
prohibition of cruel and unusual punishment requires that “punishment for crime should
be graduated and proportioned to [the] offense.” Roper, 543 U.S. at 560 (internal
quotation marks omitted). This proportionality principle requires the court to evaluate

Id. at *4. While the petitioner in Adkins cited to one of Dr. Steinberg’s articles from 2007, the Adkins
court’s above description of the lack of evidence reflects a record that is not comparable to the one before
this court. The evidence presented by Cruz here includes numerous articles and studies by Dr. Steinberg
and others, as well as Dr. Steinberg’s expert testimony before the court. Among other things, Dr.
Steinberg testified that most of the research on adolescent brain development for late adolescents
beyond age 18 did not emerge until the end of the 2000s and early 2010s. See Steinberg Tr. at 14.
Therefore, it is unlikely that one article from 2007 could capture the breadth or depth of scientific evidence
on late adolescence presented before this court, which includes, inter alia, research published in 2016
and 2017. See Alexandra Cohen et al., When Does a Juvenile Become an Adult? Implications for Law
and Policy, 88 Temple L. Rev. 769 (2016) (introduced by Cruz at the evidentiary hearing before this court
in Marked Exhibit and Witness List (Doc. No. 113)); Post-Hr’g Mem. in Supp., Ex. 1, Laurence Steinberg
et al., Around the World, Adolescence is a Time of Heightened Sensation Seeking and Immature SelfRegulation, Developmental Science 00 (2017) (Doc. No. 115-1)
Finally, the Government points to United States v. Lopez-Cabrera, No. S5-11-CR-1032 (PAE),
2015 WL 3880503 (S.D.N.Y. June 22, 2015), appeal docketed, No. 15-2220(L) (2d Cir. July 13, 2015).
The court acknowledges that the Lopez-Cabrera court had before it “voluminous scientific evidence,” as
does the court here. See id. at *4. However, it is not clear to the court from the docket in Lopez-Cabrera
whether the district court in that case also had the benefit of expert testimony. To the extent that this
court’s Ruling differs from Lopez-Cabrera, the court respectfully disagrees with its sister court in the
Southern District of New York. The court notes that Lopez-Cabrera is now pending before the Second
Circuit on appeal, but the Second Circuit has yet to issue a decision in the case.
18 As noted in the previous footnote, the Government has identified one case currently pending
before the Second Circuit, in which the Circuit will consider whether Miller should prohibit mandatory life
without parole sentences for those just over the age of 18. See United States v. Lopez-Cabrera, No. S511-CR-1032 (PAE), 2015 WL 3880503 (S.D.N.Y. June 22, 2015), appeal docketed, No. 15-2220(L) (2d
Cir. July 13, 2015). The court, in its previous Ruling on the Motion for Reconsideration, declined to stay
this case pending the resolution of Lopez-Cabrera by the Second Circuit. See Ruling re: Mot. for Recons.
at 9–10. In doing so, the court reasoned in part that Cruz is entitled to a prompt hearing on the evidence.
See id. The court now considers this same reasoning determinative in its decision to issue this Ruling
rather than stay the case pending the Second Circuit’s decision. Not only has oral argument not yet been
set in Lopez-Cabrera, but parts of the case itself has been stayed pending the Supreme Court’s decision
in Lynch v. Dimaya, No. 15-1498, and the Second Circuit’s decision in United States v. Hill, No. 14-3872.
See Lopez-Cabrera, Motion Order Granting Motion to Hold Appeal in Abeyance (Doc. No. 153). As the
court noted in its prior Ruling, “the court will not make [Cruz] wait longer than the four years he has
already waited” to have his Petition decided. See Ruling re: Mot. for Recons. at 10.

A36

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 37 of 57

“‘the evolving standards of decency that mark the progress of a maturing society’ to
determine which punishments are so disproportionate as to be cruel and unusual.” Id.
at 561 (quoting Trop v. Dulles, 356 U.S. 86, 100–01 (1958)). In its prior Ruling, the
court traced the development of Eighth Amendment jurisprudence as applied to
juveniles. See Ruling re: Mot. for Hr’g at 5–19. Rather than repeat its lengthy
discussion of that history, the court incorporates herein the relevant discussion and
focuses here on comparing the evidence relied on in Roper and the additional evidence
presented to the court by Cruz.
In 2005, the Roper Court held the death penalty unconstitutional for persons
under the age of 18 and, in drawing that line, stated:
Drawing the line at 18 years of age is subject, of course, to
the objections always raised against categorical rules. The
qualities that distinguish juveniles from adults do not
disappear when an individual turns 18. By the same token,
some under 18 have already attained a level of maturity some
adults will never reach. For the reasons we have discussed,
however, a line must be drawn. The plurality in Thompson
drew the line at 16. In the intervening years the Thompson
plurality’s conclusion that offenders under 16 may not be
executed has not been challenged. The logic of Thompson
extends to those who are under 18. The age of 18 is the point
where society draws the line for many purposes between
childhood and adulthood. It is, we conclude, the age at which
the line for death eligibility ought to rest.
Roper, 543 U.S. at 574. The Roper Court relied on national consensus and the
diminished penological justification resulting from the hallmark characteristics of youth.
See id. at 567, 572–73. In Roper, the defendant was 17 years and 5 months old at the
time of the murder. Id. at 556, 618.
In 2010, the Supreme Court in Graham v. Florida extended the reasoning in
Roper to find that life imprisonment without parole is unconstitutional for juvenile

A37

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 38 of 57

nonhomicide offenders. See Graham v. Florida, 560 U.S. 48, 74 (2010). Like the
Roper Court, the Graham Court again considered national consensus and the fact that
the characteristics of juveniles undercut the penological rationales that justified life
without parole sentences for nonhomicide offenses. See id. at 62–67, 71–74. In
Graham, the defendant was 16 at the time of the crime. See id. at 53. Thus, the
Graham Court did not need to reconsider the line drawn at age 18 in Roper, but rather
adopted that line without further analysis, quoting directly from Roper. See id. at 74–75
(“Because ‘[t]he age of 18 is the point where society draws the line for many purposes
between childhood and adulthood,’ those who were below that age when the offense
was committed may not be sentenced to life without parole for a nonhomicide crime.”
(quoting Roper, 543 U.S. at 574)).
In 2012, as noted earlier in this Ruling, the Supreme Court in Miller further
extended Graham to hold that mandatory life imprisonment without parole is
unconstitutional for juvenile offenders, including those convicted of homicide. See
Miller, 567 U.S. at 465. The defendants in Miller were 14 years old at the time of the
crime, and the Miller Court, like the Graham Court, adopted the line drawn in Roper at
age 18 without considering whether the line should be moved or providing any analysis
to support that line. See id. at 465 (“We therefore hold that mandatory life without
parole for those under the age of 18 at the time of their crimes violates the Eighth
Amendment’s prohibition on ‘cruel and unusual punishments.’”).
Because Cruz was 18 years and 20 weeks old at the time of the murders in this
case, this court is now presented with a set of facts the Supreme Court has not yet had
need to consider—whether the new rule in Miller can be applied to an 18-year-old. In

A38

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 39 of 57

considering this question, the court looks to the same factors considered by the
Supreme Court in Roper, Graham, and Miller—national consensus and developments in
the scientific evidence on the hallmark characteristics of youth. The court notes that it
need only decide whether the rule in Miller applies to an 18-year-old. On the facts of
this case, it need not decide whether Miller also applies to a 19-year-old or a 20-yearold, as Cruz was 18 years old at the time of his crime. Although Cruz asks the court to
draw the line at 21, the court declines to go any further than is necessary to decide
Cruz’s Petition.
1.

National Consensus

The decisions in Roper, Graham, and Miller all address “whether ‘objective
indicia of society’s standards, as expressed in legislative enactments and state
practice,’ show a ‘national consensus’ against a sentence for a particular class of
individuals.” Miller, 567 U.S. at 482 (quoting Graham, 560 U.S. at 61). In Roper, the
Supreme Court identified three “objective indicia of consensus” in determining that
societal standards considered the juvenile death penalty to be cruel and unusual: (1)
“the rejection of the juvenile death penalty in the majority of States;” (2) “the infrequency
of its use even where it remains on the books;” and (3) “the consistency in the trend
toward abolition of the practice.” Roper, 543 U.S. at 567. The court considers each of
these indicia in turn.
a.

Legislative Enactments

“[T]he clearest and most reliable objective evidence of contemporary values is
the legislation enacted by the country’s legislatures.” Graham, 560 U.S. at 62 (internal
quotation marks and citation omitted). The Government argues that 24 states and the
federal government have statutes prescribing mandatory life imprisonment without the

A39

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 40 of 57

possibility of parole for offenders who commit murder at the age of 18 or older. See
Post-Hr’g Mem. in Opp. at 22; see also id., Ex. A. The Government further claims that
Congress has enacted 41 statutes with a sentence of mandatory life without parole for
premeditated murder. See Post-Hr’g Mem. in Opp. at 23 (citing five examples). Based
on this tally, the Government concludes that there is no national consensus that a
mandatory life sentence without the possibility of parole is unconstitutional as applied to
persons aged 18 or older. See id. at 22–23.
However, the Supreme Court in both Graham and Miler indicated that merely
counting the number of states that permitted the punishment was not dispositive. See
Graham, 560 U.S. at 66 (“The evidence of consensus is not undermined by the fact that
many jurisdictions do not prohibit life without parole for juvenile nonhomicide
offenders.”); Miller, 567 U.S. at 485 (relying on reasoning in Graham and Thompson to
“explain[ ] why simply counting [the statutes] would present a distorted view”). The
Miller Court specifically noted that “the States’ argument on this score [is] weaker than
the one we rejected in Graham.” Miller, 567 U.S. at 482. In Graham, 39 jurisdictions
permitted life imprisonment without parole for juvenile nonhomicide offenders, see
Graham, 560 U.S. at 62, while, in Miller, 29 jurisdictions permitted mandatory life
imprisonment without parole for juvenile homicide offenders, see Miller, 567 U.S. at 482.
The Government has cited the court to 25 jurisdictions in this case, a lower number than
that in Graham or Miller.
Moreover, the reasoning of the Court in Miller that the tally of legislative
enactments is less significant than other considerations to its ultimate conclusion is also
applicable to the current issue before the court. The Miller Court reasoned:

A40

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 41 of 57

For starters, the cases here are different from the typical one
in which we have tallied legislative enactments. Our decision
does not categorically bar a penalty for a class of offenders or
type of crime—as, for example, we did in Roper or Graham.
Instead, it mandates only that a sentence follow a certain
process—considering an offender’s youth and attendant
circumstances—before imposing a particular penalty. And in
so requiring, our decision flows straightforwardly from our
precedents: specifically, the principle of Roper, Graham, and
our individualized sentencing cases that youth matters for
purposes of meting out the laws’ most serious punishments.
When both of those circumstances have obtained in the past,
we have not scrutinized or relied in the same way on
legislative enactments.
Miller, 567 U.S. at 483. Because the issue before the court now is whether to apply
Miller to an 18-year-old, the same circumstances identified above in Miller are
necessarily also true here, so the court need not rely too heavily on legislative
enactments. Cruz asks this court to rule that the mandatory aspect of the sentence
applied to him be held to be unconstitutional. He does not seek a ruling that would
prevent such a sentence from being applied in the discretion of the sentencing judge,
after consideration of a number of sentencing factors, including his youth and immaturity
at the time of the offense.
Additionally, Cruz argues that, beyond the context of statutes pertaining
specifically to mandatory life imprisonment without parole, states have enacted a
number of statutes providing greater protections to offenders ages 18 into the early 20s
than to adults. For example, while the Government indicates that no state treats
individuals aged 18 to 21 differently than adults for homicide offenses, see Post-Hr’g
Mem. in Opp. at 23, the Government acknowledges that a number of states do
recognize an intermediate classification of “youthful offenders” applicable to some other
crimes. See id., Ex. A (indicating that 18-year-olds are classified as “youthful offenders”

A41

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 42 of 57

in California, Colorado, Florida, New Mexico, and New York). Cruz also identifies 16
states that provide protections, such as expedited expungement, Youth Offender
Programs, separate facilities, or extended juvenile jurisdiction, for offenders who are 18
years old up to some age in the early 20s, depending on the state. See Post-Hr’g Mem.
in Supp. at 34–38; see also, e.g., Cal. Penal Code § 3051(a)(1) (providing a youth
offender parole hearing for prisoners under the age of 25); Va. Code. Ann. § 19.2311(B)(1) (permitting persons convicted of nonhomicide offenses under the age of 21 to
be committed to a state facility for youthful offenders in lieu of any other penalty
provided by law). Although the Government argues that these protections often do not
apply to youthful offenders who commit the most serious crimes, such as the double
homicide for which Cruz was convicted, see Post-Hr’g Mem. in Opp. at 23, these
statutes nonetheless indicate a recognition of the difference between 18-year-olds and
offenders in their mid-twenties for purposes of criminal culpability.
The Government also argues that these statutes are not persuasive of a national
consensus because the question is not whether there is a national consensus that the
adolescent brain is not mature until the mid-20s, but rather whether there is a national
consensus about the sentencing practice at issue. See Post-Hr’g Mem. in Opp. at 26
n.10 (quoting Graham, 560 U.S. at 61 (describing the inquiry as whether “there is a
national consensus against the sentencing practice at issue”)). While the court agrees
with the Government that the issue before it is whether a national consensus exists as
to the practice of sentencing 18-year-olds to mandatory life imprisonment without
parole, the court considers other evidence of line-drawing between juveniles and adults
still to be relevant. In drawing the line at age 18, the Roper Court pointed to evidence

A42

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 43 of 57

beyond the strict context of the death penalty. See Roper, 543 U.S. at 574 (“The age of
18 is the point where society draws the line for many purposes between childhood and
adulthood. It is, we conclude, the age at which the line for death eligibility ought to
rest.”). Therefore, while the court places greater weight on national consensus about
mandatory life imprisonment without parole, the court, like the Roper Court, considers
“where society draws the line for many purposes between childhood and adulthood” to
be a relevant consideration. Id.
b.

Actual Use

In finding the government’s reliance on counting to be “incomplete and
unavailing,” the Graham Court emphasized the importance of actual sentencing
practices as part of the Court’s evaluation of national consensus. Graham, 560 U.S. at
62. Along these lines, Cruz points to a 2017 Report by the United States Sentencing
Commission on offenders ages 25 or younger who were sentenced in the federal
system between 2010 and 2015. See Post-Hr’g Mem. in Supp., Ex. 3, United States
Sentencing Commission, Youthful Offenders in the Federal System, Fiscal Years 2010
to 2015 (“Youthful Offenders”) (Doc. No. 115-3).
The Sentencing Commission reported that 86,309 youthful offenders (aged 25
and under) were sentenced in the federal system during that five-year period. See id. at
2. Of those, 2,226 (2.6%) were 18 years old, 5,800 (6.7%) were 19 years old, and
8,809 (10.2%) were 20 years old. See id. at 15. Of the 86,309 youthful offenders, 96
received life sentences. See id. at 48. Of those 96, 85 were 21 years or older at the
time of sentencing, 6 were 20 years old, 4 were 19 years old, and only one was 18
years old. See id. Although the Sentencing Commission’s findings are imperfectly

A43

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 44 of 57

tailored to the question before the court,19 they nonetheless indicate the rarity with
which life sentences are imposed on 18-year-olds like Cruz, at least in the federal
system.
The Government argues that the court should not place weight on the
Sentencing Commission’s Report because it is “simply a report on statistics regarding
offenders aged twenty-five or younger. It makes no recommendation to the
Commission to change the Sentencing Guidelines. Nor does it establish anything about
trends regarding mandatory life sentences.” Post-Hr’g Mem. in Opp. at 27. In so
arguing, the Government would overly restrict the type of evidence that the court may
consider in determining whether a national consensus exists. Notably, the Graham

19

The court acknowledges that these statistics are incomplete and are not perfectly tailored to the
question before the court for a number of reasons. First, the Sentencing Commission reports on those
that received life sentences, without distinguishing whether those sentences were with or without the
possibility of parole. Nor does the Report indicate whether the life sentence was mandatory or
discretionary. However, the court notes that the number of youthful offenders receiving a mandatory
sentence of life without the possibility of parole is likely fewer than those reported by the Sentencing
Commission as receiving a life sentence, as the category of offenders receiving life sentences also
includes those receiving discretionary life sentences and those sentenced to life with the possibility of
parole. As in Miller, the court’s Ruling would not prohibit life imprisonment without parole for 18-year-olds,
but would merely require the sentence to follow a certain process before imposing such a penalty.
Second, the Report tracks age at sentencing rather than at the time of the crime. Because the
court does not have available the time between crime, plea, and sentencing, the Report is at best an
approximation. Third, the Report reflects only sentencing practices in the federal system. Cruz has not
provided comparable information for the states.
Finally, the Report does not indicate how many of the 86,309 offenders were eligible for life
sentences, which would be the appropriate denominator for comparison with the 96 youthful offenders
who received life sentences. The Report does indicate that 91.9% of the offenses were nonviolent. See
Youthful Offenders at 23. Nonetheless, the Graham Court faced the same situation and stated: “Although
it is not certain how many of these numerous juvenile offenders were eligible for life without parole
sentences, the comparison suggests that in proportion to the opportunities for its imposition, life without
parole sentences for juveniles convicted of nonhomicide crimes is as rare as other sentencing practices
found to be cruel and unusual.” Graham, 560 U.S. at 66.
Thus, while acknowledging the limitations of the Sentencing Commission’s Report, this court
likewise considers it relevant evidence of the infrequency of the use of life imprisonment on 18-year-old
offenders.

A44

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 45 of 57

Court also considered actual sentencing practices, as reported by a study done by the
United States Department of Justice. See Graham, 560 U.S. at 62–63. The Graham
Court did not mention whether the study recommended legislative changes or reported
trends over time, but rather considered its findings about the infrequency of life without
parole as a sentence for juvenile nonhomicide offenders to be significant evidence of a
national consensus regardless. See id.; see also Roper, 543 U.S. at 567 (including as a
separate indicia of consensus “the infrequency of [the punishment’s] use even where it
remains on the books,” independent of the indicia for legislative enactments or
directional trends). Thus, while certainly not dispositive of national consensus, the
Sentencing Commission’s Report is relevant evidence in the court’s consideration on
that issue. To that end, the Report clearly indicates the extreme infrequency of the
imposition of life sentences on 18-year-olds in the federal system.
c.

Directional Trend

Cruz additionally points to evidence of trends since Roper indicating a direction
of change toward recognizing that “late adolescents require extra protections from the
criminal law” and more generally that society “treats eighteen- to twenty-year-olds as
less than fully mature adults.” Post-Hr’g Mem. in Supp. at 38, 40. As noted previously,
the Government challenges Cruz’s reliance on such evidence because the issue is
whether “there is a national consensus against the sentencing practice at issue,” not
whether there is a national consensus that adolescent brains are not fully mature until
the mid-20s. Post-Hr’g Mem. in Opp. at 26 n.10 (quoting Graham, 560 U.S. at 61).
The court acknowledges that the most persuasive evidence of a directional trend
would be changes in state legislation prohibiting mandatory life imprisonment without
parole for 18-year-olds. Cruz has not provided evidence of this. However, the court

A45

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 46 of 57

again looks for guidance to the Roper Court, which drew the line at age 18 based on
“where society draws the line for many purposes between childhood and adulthood.”
Roper, 543 U.S. at 574. Thus, trends as to where society draws that line are relevant,
and the court is not confined to consider only evidence in the strict context of mandatory
life imprisonment without parole.
While Roper emphasized that society draws the line at age 18 for many
purposes, including voting, serving on juries, and marrying without parental consent,
Cruz identifies other important societal lines that are drawn at age 21, such as drinking.
See Post-Hr’g Mem. in Supp. at 40–41 (citing 23 U.S.C. § 158); Roper, 543 U.S. at 569.
Some lines originally drawn at age 18 have also begun to shift to encompass 18- to 20year-olds. For example, a Kentucky state court in Bredhold v. Kentucky declared the
state’s death penalty statute unconstitutional as applied to those under the age of 21,
based on a finding of a “consistent direction of change” that “the national consensus is
growing more and more opposed to the death penalty, as applied to defendants
eighteen (18) to twenty-one (21).” Post-Hr’g Mem. in Supp., Ex. 5, Bredhold v.
Kentucky (Doc. No. 115-5) at 6. The Kentucky court cited the fact that, in the 31 states
with a death penalty statute, a total of only 9 defendants under the age of 21 at the time
of the offence were executed between 2011 and 2016.
Likewise, recognizing the same directional trend, the American Bar Association
(“ABA”) issued a Resolution in February 2018, “urg[ing] each jurisdiction that imposes
capital punishment to prohibit the imposition of a death sentence on or execution of any
individual who was 21 years old or younger at the time of the offense.” See Petitioner’s
Notice of Supplemental Authority, Ex. A (“ABA Resolution”) (Doc. No. 121-1) at 1. In

A46

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 47 of 57

doing so, the ABA considered both increases in scientific understanding of adolescent
brain development and legislative developments in the legal treatment of individuals in
late adolescence. See id. at 6–10. For example, it recognized “a consistent trend
toward extending the services of traditional child-serving agencies, including the child
welfare, education, and juvenile justice systems, to individuals over the age of 18.” Id.
at 10.
Additionally, Cruz points out that, between 2016 and 2018, 5 states and 285
localities raised the age to buy cigarettes from 18 to 21. See Campaign for TobaccoFree Kids, States and Localities That Have Raised the Minimum Legal Sale Age for
Tobacco Products to 21, http://www.tobaccofreekids.org/assets/content/what_we_do/
state_local_issues/sales_21/states_localities_MLSA_21.pdf. Furthermore, as of 2016,
all fifty states and the District of Columbia recognized extended age jurisdiction20 for
juvenile courts beyond the age of 18, in comparison to only 35 states in 2003. See
Post-Hr’g Mem. in Supp., Ex. 8, National Center for Juvenile Justice, U.S. Age
Boundaries of Delinquency 2016 (Doc. No. 115-8) at 2; Elizabeth Scott, Richard Bonnie
& Laurence Steinberg, Young Adulthood as a Transitional Legal Category, 85 Fordham
L. Rev. 641, 666 n.156 (2016).

“Extended age boundaries are statutory provisions that indicate the oldest age a juvenile court
can retain or resume jurisdiction over an individual whose delinquent conduct occurred before the end of
the upper age boundary.” U.S. Age Boundaries of Delinquency 2016 at 3. “The upper age boundary
refers to the oldest age at which an individual’s alleged conduct can be considered delinquent and under
original juvenile court jurisdiction.” Id. at 1. Cruz’s argument focuses on extended age boundaries rather
than upper age boundaries. Most upper age boundaries remain at 17, but many states that previously
had upper age boundaries below 17 recently raised the age to 17. See id. at 2.
20

A47

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 48 of 57

While there is no doubt that some important societal lines remain at age 18, the
changes discussed above reflect an emerging trend toward recognizing that 18-yearolds should be treated different from fully mature adults.
2.

Scientific Evidence

“Community consensus, while entitled to great weight, is not itself determinative
of whether a punishment is cruel and unusual.” Graham, 560 U.S. at 67 (internal
quotation marks omitted). The court retains the responsibility of interpreting the Eighth
Amendment. Id. (citing Roper, 543 U.S. at 575). To that end, “[t]he judicial exercise of
independent judgment requires consideration of the culpability of the offenders at issue
in light of their crimes and characteristics, along with the severity of the punishment in
question.” Id. at 67.
The Court in Roper, Graham, and Miller thus looked to the available scientific
and sociological research at the time of the decisions to identify differences between
juveniles under the age of 18 and fully mature adults—differences that undermine the
penological justifications for the sentences in question. See Roper, 543 U.S. at 569–72;
Graham, 560 U.S. at 68–75; Miller, 567 U.S. at 471 (“Our decisions rested not only on
common sense—on what “any parent knows”—but on science and social science as
well.”). The Supreme Court in these cases identified “[t]hree general differences
between juveniles under 18 and adults”: (1) that juveniles have a “lack of maturity and
an underdeveloped sense of responsibility,” often resulting in “impetuous and illconsidered actions and decisions;” (2) that juveniles are “more vulnerable or susceptible
to negative influences and outside pressures, including peer pressure;” and (3) that “the
character of a juvenile is not as well formed as that of an adult.” Roper, 543 U.S. at
569–70; see also Graham, 560 U.S. at 68; Miller, 567 U.S. at 471–72.

A48

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 49 of 57

Because of these differences, the Supreme Court concluded that juveniles are
less culpable for their crimes than adults and therefore the penological justifications for
the death penalty and life imprisonment without the possibility of parole apply with less
force to them than to adults. See Roper, 543 U.S. at 570–71; Graham, 560 U.S. at 69–
74; Miller, 567 U.S. at 472–73. Retribution is less justifiable because the actions of a
juvenile are less morally reprehensible than those of an adult due to diminished
culpability. See Graham, 560 U.S. at 71. Likewise, deterrence is less effective because
juveniles’ “impetuous and ill-considered actions” make them “less likely to take a
possible punishment into consideration when making decisions.” Id. at 72. Nor is
incapacitation applicable because juveniles’ personality traits are less fixed and
therefore it is difficult for experts to “differentiate between the juvenile offender whose
crime reflects unfortunate yet transient immaturity, and the rare juvenile offender whose
crime reflects irreparable corruption.” Id. at 72–73 (quoting Roper, 543 U.S. at 572).
Finally, rehabilitation cannot be the basis for life imprisonment without parole because
that “penalty altogether forswears the rehabilitative ideal” by “denying the defendant the
right to reenter the community.” Id. at 74.
In reaching its decision, the Roper Court relied on the Court’s prior decision in
Thompson v. Oklahoma, 487 U.S. 815 (1988), which held that the Eighth Amendment
prohibited the execution of a defendant convicted of a capital offense committed when
the defendant was younger than 16 years old. See Roper, 543 U.S. at 570–71. The
Roper Court pointed to the Thompson Court’s reliance on the significance of the
distinctive characteristics of juveniles under the age of 16 and stated, “We conclude the
same reasoning applies to all juvenile offenders under 18.” Id. The court now looks to

A49

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 50 of 57

the Roper Court’s reliance on these same characteristics and concludes that scientific
developments since then indicate that the same reasoning also applies to an 18-yearold. See Steinberg Tr. at 70–71 (stating that he is “[a]bsolutely certain” that the
scientific findings that underpin his conclusions about those under the age of 18 also
apply to 18-year-olds); Alexandra Cohen et al., When Does a Juvenile Become an
Adult? Implications for Law and Policy, 88 Temple L. Rev. 769 (2016); Post-Hr’g Mem.
in Supp., Ex. 1, Laurence Steinberg et al., Around the World, Adolescence is a Time of
Heightened Sensation Seeking and Immature Self-Regulation, Developmental Science
00 (2017) (Doc. No. 115-1).
As to the first characteristic identified by the Roper Court—“lack of maturity and
an underdeveloped sense of responsibility” as manifested in “impetuous and illconsidered actions and decisions”—the scientific evidence before the court clearly
establishes that the same traits are present in 18-year-olds. See Roper, 543 U.S. at
569. Cruz’s evidence consists of the expert testimony of Dr. Laurence Steinberg and
scientific articles offered as exhibits. See, e.g., Cohen et al., When Does a Juvenile
Become an Adult?; Steinberg et al., Around the World.21
In his testimony, Dr. Steinberg defined early adolescence as occurring between
the ages of 10 and 13, middle adolescence between the ages of 14 and 17, and late
adolescence between the ages of 18 and 21. See Steinberg Tr. at 11. He
distinguished between two different decision-making processes: cold cognition, which
occurs when an individual is calm and emotionally neutral, and hot cognition, which

The court notes that the Government has not challenged Dr. Steinberg’s expertise or his
“scientific opinion on these matters.” See Post-Hr’g Mem. in Opp. at 15; Steinberg Tr. at 6.
21

A50

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 51 of 57

occurs when an individual is emotionally aroused, such as in anger or excitement. See
id. at 9–10. Cold cognition relies mainly on basic thinking abilities while hot cognition
also requires the individual to regulate and control his emotions. See id. at 10. While
the abilities required for cold cognition are mature by around the age of 16, the
emotional regulation required for hot cognition is not fully mature until the early- or mid20s. See id. at 10, 70; see also Cohen et al., When Does a Juvenile Become an Adult?,
at 786 (finding that, “relative to adults over twenty-one, young adults show diminished
cognitive capacity, similar to that of adolescents, under brief and prolonged negative
emotional arousal”).
Dr. Steinberg also testified that late adolescents “still show problems with
impulse control and self-regulation and heightened sensation-seeking, which would
make them in those respects more similar to somewhat younger people than to older
people.” Steinberg Tr. at 19. For example, he testified that impulse control is still
developing during the late adolescent years from age 10 to the early- or mid-20s.22 See
id. at 20; Post-Hr’g Mem. in Supp. at 10; Cohen et al. at 780. Additionally, late
adolescents are more likely to take risks than either adults or middle or early
adolescents. See Steinberg Tr. at 20. According to Dr. Steinberg, risk-seeking
behavior peaks around ages 17 to 19 and then declines into adulthood. See id.;
Steinberg et al., Around the World, at 10 (graphing the trajectory of sensation-seeking
behavior, as related to age, as an upside-down “U” with the peak at age 19). The

22 Cruz’s materials differ as to whether development in impulse control plateaus at age 21 or age
25. See Steinberg Tr. at 19 (describing a linear development in impulse control from age 10 to age 25);
Post-Hr’g Mem. in Supp. at 10 (stating in one sentence that impulse control plateaus sometime after age
21 and in another sentence that it does not plateau until about age 25). The inconsistency does not
impact the court’s decision here, as both plateau ages are several years beyond Cruz’s age at the time of
his offense.

A51

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 52 of 57

scientific evidence therefore reveals that 18-year-olds display similar characteristics of
immaturity and impulsivity as juveniles under the age of 18.
The same conclusion can be drawn for susceptibility of 18-year-olds to outside
influences and peer pressure, the second characteristic of youth identified in Roper. Dr.
Steinberg testified that the ability to resist peer pressure is still developing during late
adolescence. See Steinberg Tr. at 20–21. Therefore, susceptibility to peer pressure is
higher in late adolescence than in adulthood, but slightly lower than in middle
adolescence. See id. According to Dr. Steinberg’s research, up until the age of 24,
people exhibit greater risk-taking and reward-sensitive behavior when in the presence of
their peers. See id. at 24–25. Adults after the age of 24 do not exhibit this behavior, but
rather perform the same whether they are by themselves or with their peers. See id.
Therefore, like juveniles under the age of 18, 18-year-olds also experience similar
susceptibility to negative outside influences.
Finally, on the third characteristic of youth identified by Roper—that a juvenile’s
personality traits are not as fixed—Dr. Steinberg testified that people in late
adolescence are, like 17-year-olds, more capable of change than are adults. See id. at
21.
Thus, in sum, Dr. Steinberg testified that he is “absolutely confident” that
development is still ongoing in late adolescence. See id. at 62. In 2003, Dr. Steinberg
co-wrote an article, the central point of which was that adolescents were more
impetuous, were more susceptible to peer pressure, and had less fully formed
personalities than adults. See id. at 22; see also Laurence Steinberg & Elizabeth Scott,
Less Guilty by Reason of Adolescence: Developmental Immaturity, Diminished

A52

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 53 of 57

Responsibility, and the Juvenile Death Penalty, 58 Am. Psychol. 1009 (2003). Although
the article focused on people younger than 18, Dr. Steinberg testified that, if he were to
write the article today, with the developments in scientific knowledge about late
adolescence, he would say “the same things are true about people who are younger
than 21.” Steinberg Tr. at 22.
The court today is not asked to determine whether the line should be drawn at
age 20. Rather, the issue before the court is whether the conclusions of Miller can be
applied to Cruz, an 18-year-old. To that end, Dr. Steinberg testified that he was not
aware of any statistically significant difference between 17-year-olds and 18-year-olds
on issues relevant to the three differences identified by the Court in Roper, Graham,
and Miller. See id. at 69; see also, supra, at 48–49. When asked whether he could
state to a reasonable degree of scientific certainty that the findings that underpinned his
conclusions as to the defendants in Graham and Miller, who were under the age of 18,
also applied to an 18-year-old, Dr. Steinberg answered that he was “[a]bsolutely
certain.” See id. at 70–71.
The Government does not contest Dr. Steinberg’s scientific opinion or with Cruz’s
presentation of the scientific findings. See Post-Hr’g Mem. in Opp. at 15 (“To be clear,
the Government did not, and has not, taken issue with Professor Steinberg’s scientific
opinion on these matters. Nor, generally, does the Government dispute the scientific
findings presented by the petitioner in his brief, which largely mirror those to which
Professor Steinberg testified.”).23 Rather, the Government argues only that the court

The Government does note in a footnote that the science is “not as convincing for individuals
aged 18 to 21 as it is for individuals younger than 18,” but it does not argue that the scientific evidence
23

A53

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 54 of 57

has before it the same scientific evidence that was before the Supreme Court in Miller,
so the court should draw the same line at age 18 as did the Miller Court. See id. at 12–
20. The Government presents a side-by-side comparison of some of the facts
presented by Dr. Steinberg at the evidentiary hearing before this court and the facts
presented in two amicus briefs submitted in Miller. See id. at 16–18.24

pertaining to 18-year-olds is insufficient to support the conclusions drawn by the court. See Post-Hr’g
Mem. in Opp. at 15 n.5.
24 The Government makes much of the fact that the Miller Court cited a 2003 scientific article
authored by Professor Steinberg and two amicus briefs in support of its conclusion that “developments in
psychology and brain science continue to show fundamental differences between juvenile and adolescent
minds.” See Post-Hr’g Mem. in Opp. at 15 (quoting Miller, 567 U.S. at 471–72); Brief for the Am. Psych.
Ass’n et al., Nos. 10-9646, 10-9647, 2012 WL 174239 (Jan. 17, 2012); Brief of Amici Curiae J. Lawrence
Aber et al., Nos. 10-9646, 10-9647, 2012 WL 195300 (Jan. 17, 2012). However, the court disagrees with
the importance that the Government attributes to these citations in the Miller opinion and does not
consider them to indicate that the Court considered whether 18-year-olds exhibit the same hallmark
characteristics of youth as those under the age of 18 in Miller.

First, the court notes that the 2003 article, while authored by Steinberg, does not contain the
same findings about which he testified before this court. The aim of that article was to argue that “[t]he
United States should join the majority of countries around the world in prohibiting the execution of
individuals for crimes committed under the age of 18.” Laurence Steinberg & Elizabeth Scott, Less Guilty
by Reason of Adolescence: Developmental Immaturity, Diminished Responsibility, and the Juvenile
Death Penalty, 58 Am. Psychol. 1009, 1017 (2003); see also Steinberg Tr. at 22 (“The focus of the article
was about people younger than 18. If we were writing it today, I think we would say that the same things
are true about people who are younger than 21.”).
Second, where the Miller Court cites to the two amicus briefs, it cites to portions of those briefs
that support the conclusions of the Roper and Graham Courts. See Miller, 567 U.S. at 472 n.5 (“The
evidence presented to us in these cases indicates that the science and social science supporting Roper’s
and Graham’s conclusions have become even stronger.” (citing Brief for Am. Psych. Ass’n et al.; Brief for
J. Lawrence Aber et al.)). While the Government’s Memorandum identifies sentences in the briefs that
refer to late adolescence or young adulthood, see Post-Hr’g Mem. in Opp. at 16–18, the Miller Court does
not cite or refer to those aspects of the briefs. Indeed, the APA Brief, from which the Government draws
all but one of its references to late adolescence and young adulthood, expressly states:
We use the terms ‘juvenile’ and ‘adolescent’ interchangeably to refer to
individuals aged 12 to 17. Science cannot, of course, draw bright lines
precisely demarcating the boundaries between childhood, adolescence,
and adulthood; the “qualities that distinguish juveniles from adults do not
disappear when an individual turns 18.” Roper, 543 U.S. at 574.
Likewise, younger adolescents differ in some respects from 16- and 17year olds. Nonetheless, because adolescents generally share certain
developmental characteristics that mitigate their culpability, and because
“the age of 18 is the point where society draws the line for many
purposes between childhood and adulthood,” this Court’s decisions have
recognized age 18 as a relevant demarcation. Graham, 130 S. Ct. at

A54

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 55 of 57

The Government’s comparison is misguided, however, because the Supreme
Court in Miller did not have occasion to consider whether the indicia of youth applied to
18-year-olds. As discussed above, the Supreme Court has historically been “reluctan[t]
to decide constitutional questions unnecessarily.” See Bowen, 422 U.S. at 920. In
Miller, both defendants were 14 years old at the time of their crimes. See Miller, 567
U.S. at 465. The issue before the Court in Miller was whether mandatory life
imprisonment without the possibility of parole was unconstitutional for juvenile offenders
who committed homicides. See id. Thus, the Miller Court merely adopted without
analysis the line at age 18, drawn seven years earlier by the Roper Court, because the
facts before the Court did not require it to reconsider that line. See Miller, 567 U.S. at
471–80. As evidence of this, when the Supreme Court asked counsel for Miller where
to draw the line, rather than pointing to any scientific evidence, counsel answered, “I
would draw it at 18 . . . because we’ve done that previously; we’ve done that
consistently.” See Miller, Oral Argument Transcript, at 10, available at
https://www.supremecourt.gov/oral_arguments/argument_transcripts/ 2011/109646.pdf.
A more appropriate comparison, then, would be the evidence before the court
today and the evidence before the Roper Court in 2005. Dr. Steinberg testified that, in

2030; see Roper, 543 U.S. at 574. The research discussed in this brief
accordingly applies to adolescents under age 18, including older
adolescents, unless otherwise noted.
Brief for Am. Psych. Ass’n et al., 2012 WL 174239, at *6 n.3. Thus, consistent with the issue to be
decided in Miller, both the briefs and the Miller opinion were primarily concerned with the scientific
evidence to the extent that it corroborated the conclusions in Roper and Graham as to the immaturity and
diminished culpability of those under the age of 18.

A55

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 56 of 57

the mid- to late-2000s, “virtually no research . . . looked at brain development during late
adolescence or young adulthood.” Steinberg Tr. at 14. He stated:
People began to do research on that period of time toward the
end of that decade and as we moved into 2010 and beyond,
there began to accumulate some research on development in
the brain beyond age 18, so we didn’t know a great deal about
brain development during late adolescence until much more
recently.
Id. Therefore, when the Roper Court drew the line at age 18 in 2005, the Court did not
have before it the record of scientific evidence about late adolescence that is now
before this court.
Thus, relying on both the scientific evidence and the societal evidence of national
consensus, the court concludes that the hallmark characteristics of juveniles that make
them less culpable also apply to 18-year-olds. As such, the penological rationales for
imposing mandatory life imprisonment without the possibility of parole cannot be used
as justification when applied to an 18-year-old.
The court therefore holds that Miller applies to 18-year-olds and thus that “the
Eighth Amendment forbids a sentencing scheme that mandates life in prison without
possibility of parole” for offenders who were 18 years old at the time of their crimes.
See Miller, 567 U.S. at 479. As applied to 18-year-olds as well as to juveniles, “[b]y
making youth (and all that accompanies it) irrelevant to imposition of that harshest
prison sentence, such a scheme poses too great a risk of disproportionate punishment.”
See id. As with Miller, this Ruling does not foreclose a court’s ability to sentence an 18year-old to life imprisonment without parole, but requires the sentencer to take into
account how adolescents, including late adolescents, “are different, and how those

A56

Case 3:11-cv-00787-JCH Document 125 Filed 03/29/18 Page 57 of 57

differences counsel against irrevocably sentencing them to a lifetime in prison.” See id.
at 480.
VI.

CONCLUSION
For the reasons stated above, Cruz’s Petition to Vacate, Set Aside, or Correct

Sentence (Doc. No. 37) is GRANTED.
SO ORDERED.
Dated at New Haven, Connecticut, this 29th day of March, 2018.

/s/ Janet C. Hall
Janet C. Hall
United States District Judge

A57

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page1 of 7

19-989-cr
Cruz v. United States

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 11th day of September, two thousand twenty.
PRESENT:

RALPH K. WINTER,
REENA RAGGI,
DENNY CHIN,
Circuit Judges.
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
LUIS NOEL CRUZ, AKA Noel,
Petitioner-Appellee,
-v-

19-989-cr

UNITED STATES OF AMERICA,
Respondent-Appellant.
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
FOR PETITIONER-APPELLEE:

TADHG DOOLEY, Wiggin and Dana LLP,
New Haven, Connecticut, and William T. Koch,
III, Niantic, Connecticut.

A58

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page2 of 7

FOR RESPONDENT-APPELLANT:

JOHN T. PIERPONT, JR., Assistant United
States Attorney (Patricia Stolfi Collins, Sandra
S. Glover, Assistant United States Attorneys, on
the brief), for John H. Durham, United States
Attorney for the District of Connecticut, New
Haven, Connecticut.

FOR AMICUS CURIAE:

John R. Mills, Phillips Black, Inc., Oakland,
California.

Appeal from the United States District Court for the District of
Connecticut (Janet C. Hall, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the amended judgment of the district court is
VACATED and the case is REMANDED for the district court to reinstate the prior
judgment and sentence.
The Government appeals from an order of the district court, entered on
March 29, 2018, granting petitioner-appellee Luis Noel Cruz's successive petition
brought under 28 U.S.C. § 2255 to vacate his sentence of four concurrent terms of
mandatory life imprisonment and from its amended judgment, imposed on February
26, 2019 (and entered on the docket on March 18, 2019), sentencing Cruz principally to a
total of thirty-five years' imprisonment. On appeal, the Government maintains that,
because Cruz was eighteen years and twenty weeks old when he and another member
of the Latin Kings committed the homicide crimes of conviction, the district court erred
when it (1) held that Miller v. Alabama, 567 U.S. 460 (2012), precluded the imposition of

A59

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page3 of 7

his mandatory life sentences and (2) failed to dismiss Cruz's successive petition for lack
of jurisdiction. We assume the parties' familiarity with the underlying facts, procedural
history, and issues on appeal.
BACKGROUND
On September 29, 1995, Cruz was convicted, following a jury trial, of two
counts of murder in aid of racketeering, racketeering, conspiracy to commit a drug
offense, and related crimes. On January 30, 1996, the district court sentenced Cruz to,
inter alia, four concurrent terms of life imprisonment.
On June 25, 2013, Cruz sought permission to file a fifth successive petition
under 28 U.S.C. § 2255 to raise a proposed claim based on Miller. See United States v.
Millet (Luis Noel Cruz), No. 13-2457 (2d Cir.) (Doc. No. 2). This Court granted the
request on July 22, 2013. Id. (Doc. No. 25). In Miller, the Supreme Court held that the
Eighth Amendment's prohibition on cruel and unusual punishment barred a
mandatory life sentence without parole for an individual under the age of eighteen at
the time of his crime. See Miller, 567 U.S. at 465; see also Montgomery v. Louisiana, 136
S. Ct. 718, 734 (2016) (holding that Miller announced a new substantive constitutional
rule that was retroactive on collateral review).
Cruz filed the instant petition in the district court on August 19, 2014, and
argued, inter alia, that Miller's prohibition of mandatory life imprisonment for
individuals younger than eighteen years old ("juveniles") should also apply to those

A60

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page4 of 7

who were eighteen at the time of their offense. During a two-day evidentiary hearing,
Cruz presented expert testimony to the effect that individuals aged eighteen to twentyone are similar to juveniles with respect to brain development, impulse control, and
susceptibility to peer influence.
The district court was persuaded, and, on March 29, 2018, it vacated
Cruz's life sentences. It reasoned that nothing in Miller limits its application to
defendants who were juveniles at the time of their offense, and that both scientific
evidence and a national consensus supports the conclusion that the Eighth Amendment
forbids a mandatory life sentence for a defendant who was eighteen at the time of his
crime. The district court subsequently resentenced Cruz to thirty-five years'
imprisonment. This appeal followed.
DISCUSSION
We review a district court's legal conclusions underlying a motion for
relief under 28 U.S.C. § 2255 de novo and its factual findings for clear error. See United
States v. Hoskins, 905 F.3d 97, 102 (2d Cir. 2018).
We are obliged to identify legal error by our decision in United States v.
Sierra, 933 F.3d 95 (2d Cir. 2019), cert. denied sub nom. Beltran v. United States, 140 S. Ct.
2540 (Mar. 23, 2020), and cert. denied sub nom. Lopez-Cabrera v. United States, 141 S. Ct.
2541 (Mar. 23, 2020). In that case, decided in August 2019, after the district court
resentenced Cruz, this Court held that mandatory life sentences for individuals

A61

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page5 of 7

eighteen years old or older do not violate the Eighth Amendment. As Sierra observes,
see id. at 97, the Supreme Court has repeatedly drawn a bright line at age eighteen for
Eighth Amendment limitations on sentencing. See Miller, 567 U.S. at 465, 479
("[M]andatory life without parole for those under the age of 18 at the time of their
crimes violates the Eighth Amendment's prohibition on cruel and unusual
punishments," because "[b]y making youth (and all that accompanies it) irrelevant to
imposition of that harshest prison sentence, such a scheme poses too great a risk of
disproportionate punishment."); Graham v. Florida, 560 U.S. 48, 74 (2010) (adopting a
categorical rule at the age of eighteen to implement its holding that the Eighth
Amendment forbids the imposition of a life sentence without parole for a juvenile
offender who did not commit homicide); Roper v. Simmons, 543 U.S. 551, 574, 578 (2005)
(holding that "[t]he Eighth and Fourteenth Amendments forbid imposition of the death
penalty on offenders who were under the age of 18 when their crimes were committed"
because "[t]he age of 18 is the point where society draws the line for many purposes
between childhood and adulthood"). Consequently, because the Supreme Court has
"chosen to draw the constitutional line at the age of 18 for mandatory minimum life
sentences," the imposition of such sentences for defendants between ages of eighteen
and twenty-two does not violate the Eighth Amendment. See Sierra, 933 F.3d at 97. 1

Every Circuit to consider this issue has refused to extend Miller to defendants who were
eighteen or older at the time of their offenses, albeit in circumstances distinct from those
1

A62

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page6 of 7

In light of our holding in Sierra, we conclude that the district court erred
when it held that the Eighth Amendment forbids a mandatory life sentence for a
defendant who was eighteen at the time of his offense. Like the defendants in Sierra,
Cruz was convicted of murders in aid of racketeering committed after he had turned
eighteen, and he was subsequently sentenced to mandatory life terms. See id. Although
Cruz committed his offense only five months after his eighteenth birthday, we noted in
Sierra that the Supreme Court explicitly limited its holding in Miller to defendants
"under the age of 18," 567 U.S. at 465, and earlier Eighth Amendment jurisprudence also
drew a categorical line at age eighteen between adults and juveniles, see Graham, 560
U.S. at 74; Roper, 543 U.S. at 574 ("Drawing the line at 18 years of age is subject, of
course, to the objections always raised against categorical rules. The qualities that
distinguish juveniles from adults do not disappear when an individual turns 18 . . . .
[H]owever, a line must be drawn."). Accordingly, the district court's decision to vacate
Cruz's life sentences on the grounds that the Eighth Amendment forbids such a
sentence for a defendant who is eighteen is inconsistent with both this Court's decision
in Sierra and Supreme Court precedent. 2

presented by this case. See, e.g., Wright v. United States, 902 F.3d 868, 872 (8th Cir. 2018), cert.
denied, 139 S. Ct. 1207 (2019); In re Frank, 690 F. App'x 146 (5th Cir. 2017); Melton v. Florida Dep’t
of Corr., 778 F.3d 1234, 1235, 1237 (11th Cir. 2015); United States v. Marshall, 736 F.3d 492, 500 (6th
Cir. 2013); United States v. Dock, 541 Fed. Appx. 242, 245 (4th Cir. 2013).
Because we hold that Cruz's petition must be denied, we do not reach the Government's
procedural argument that the district court erred when it failed to dismiss Cruz's successive
petition for lack of jurisdiction under § 2255(h).
2

A63

Case 19-989, Document 133-1, 09/11/2020, 2928520, Page7 of 7

*

*

*

For the foregoing reasons, we VACATE the judgment of the district court
and REMAND for the district court to reinstate the prior judgment and sentence.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A64

Case 19-989, Document 143, 11/19/2020, 2978251, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
19th day of November, two thousand twenty.
________________________________________
Luis Noel Cruz, AKA Noel,
Petitioner - Appellee,
v.

ORDER

United States of America,

Docket No: 19-989

Respondent - Appellant.
_______________________________________
Appellee, Luis Noel Cruz, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A65

User Name: Vishal Garg
Date and Time: Saturday, April 17, 2021 11:16:00 PM EDT
Job Number: 141708445

Document (1)
1. In re Pers. Restraint of Monschke, 2021 Wash. LEXIS 152
Client/Matter: -NoneSearch Terms: 2021 Wash. LEXIS 152
Search Type: Natural Language
Narrowed by:
Content Type
Cases

Narrowed by
-None-

| About LexisNexis | Privacy Policy | Terms & Conditions | Copyright © 2021 LexisNexis
Vishal Garg

A66

In re Pers. Restraint of Monschke
Supreme Court of Washington
May 14, 2020, Argued; March 11, 2021, Filed
NO. 96772-5
Reporter
2021 Wash. LEXIS 152 *

Punishment

In the Matter of the Personal Restraint of KURTIS WILLIAM
MONSCHKE, Petitioner.In the Matter of the Personal Restraint
of DWAYNE EARL BARTHOLOMEW, Petitioner.

Wash. Rev. Code § 10.95.030 provides that any person who is
convicted of aggravated murder and not sentenced to death
shall be sentenced to life imprisonment without possibility of
release or parole. The Washington Supreme Court has held
the death penalty unconstitutional in Washington, converting
all death sentences in the state to life without parole (LWOP)
and rendering LWOP the only statutorily permissible
aggravated murder sentence for persons 18 and older.

Prior History: [*1] Appeal from Pierce County Superior
Court. 03-1-01464-0. Honorable Lisa Worswick.
State v. Monschke, 133 Wn. App. 313, 135 P.3d 966, 2006
Wash. App. LEXIS 1104 (June 1, 2006)

Constitutional Law > The Judiciary > Case or
Controversy > Constitutionality of Legislation
Governments > Legislation > Statute of
Limitations > Time Limitations
Criminal Law &
Procedure > Sentencing > Appeals > Legality Review

LexisNexis® Headnotes

HN3[ ] Case or Controversy, Constitutionality of
Legislation
Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN1[ ] Fundamental
Punishment

Rights,

Cruel

&

Unusual

For some purposes, the Washington Supreme Court defers to
the legislature’s decisions as to who constitutes an "adult."
But when it comes to mandatory life without parole sentences,
Miller v. Alabama’s constitutional guaranty of an
individualized sentence—one that considers the mitigating
qualities of youth—must apply to defendants at least as old as
19 or 20 at the time of their crimes.

Six enumerated exceptions temper the one-year time bar.
Wash. Rev. Code § 10.73.100. One of these exceptions allows
petitioners to file a personal restraint petition without any
deadline if the statute that the defendant was convicted of
violating was unconstitutional on its face or as applied to the
defendant’s conduct. Wash. Rev. Code § 10.73.100(2). This
exception is important because convictions under
unconstitutional statutes are as no conviction at all and
invalidate the prisoner’s sentence.

Criminal Law & Procedure > Postconviction
Proceedings > Imprisonment
Evidence > Burdens of Proof > Allocation

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN2[

]

Fundamental

Rights,

Cruel

&

HN4[

Unusual

] Postconviction Proceedings, Imprisonment

A personal restraint petitioner must show actual and

Vishal Garg A67

Page 2 of 19
2021 Wash. LEXIS 152, *1
substantial prejudice resulting from the alleged error.

HN8[ ] Fundamental
Punishment

Criminal Law & Procedure > ... > Murder > Aggravated
Murder > Penalties
Evidence > Weight & Sufficiency
HN5[

] Aggravated Murder, Penalties

The aggravated murder statute is different than other
sentencing statutes—it requires the State to charge and the
jury (or other trier of fact) to find the defendant guilty of that
very same aggravated murder charge.

Criminal Law & Procedure > Postconviction
Proceedings > Imprisonment

Rights,

Cruel

&

Unusual

Wash. Const. art. I, § 14 of the Washington Constitution
prohibits cruel punishment. It does not prohibit mandatory (or
discretionary) life without parole (LWOP) sentences for all
aggravated murder defendants. But it does prohibit LWOP
sentences for juvenile offenders. That state constitutional bar
against cruel punishment, like the Eighth Amendment bar
against cruel and unusual punishments, also forbids
mandatory LWOP sentences for juvenile offenders. It further
requires courts to exercise complete discretion to consider
mitigating circumstances associated with the youth of any
juvenile defendant, even when faced with mandatory statutory
language.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment

Governments > Legislation > Interpretation
Constitutional Law > State Constitutional Operation
HN6[

] Postconviction Proceedings, Imprisonment

The Washington Supreme Court has rejected a distinction
between sentences and convictions in the personal restraint
petition time bar context as absurd.

Criminal Law & Procedure > Appeals > Procedural
Matters
Criminal Law &
Procedure > ... > Reviewability > Preservation for
Review > Requirements
HN7[

] Appeals, Procedural Matters

Conviction, judgment, and sentence certainly are not
interchangeable but a direct appeal from a conviction cannot
be disposed of until both the conviction and sentence are
affirmed and an appellate court issues a mandate terminating
review of both issues.

HN9[ ] Fundamental
Punishment

Rights,

Cruel

&

Unusual

The Washington Supreme Court has repeatedly recognized
that the Washington State Constitution’s cruel punishment
clause often provides greater protection than the Eighth
Amendment. Specifically, the court has identified that in the
context of juvenile sentencing, Wash. Const. art. I, § 14
provides greater protection than the Eighth Amendment. In
this context, where it is well established that a state
constitutional provision is more protective than the United
States Constitution, there is no need to conduct a Gunwall
analysis each time a new question is presented. The court may
assume an independent state analysis is justified and move
directly to the merits.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
Constitutional Law > State Constitutional Operation
HN10[ ] Fundamental Rights, Cruel & Unusual
Punishment

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
Criminal Law & Procedure > ... > Murder > Aggravated
Murder > Penalties
Constitutional Law > State Constitutional Operation

The categorical bar test that the Washington Supreme Court
used in State v. Bassett and the proportionality test that the
court used in State v. Fain were designed for a different
purpose. The court applies them to determine when a
particular punishment is categorically cruel in violation of

Vishal Garg A68

Page 3 of 19
2021 Wash. LEXIS 152, *1
Wash. Const. art. I, § 14 in the first place.

under Wash. Const. art. I, § 14.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment

HN11[ ] Fundamental Rights, Cruel & Unusual
Punishment

HN15[ ] Fundamental Rights, Cruel & Unusual
Punishment

And under the Washington Constitution, LWOP sentences for
juveniles are impermissibly cruel.

Every individual is different, and perhaps not every 20-yearold offender will deserve leniency on account of youthfulness.
But the variability in individual attributes of youthfulness are
exactly why courts must have discretion to consider those
attributes as they apply to each individual youthful offender.
That is why mandatory sentences for youthful defendants are
unconstitutional.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN12[ ] Fundamental Rights, Cruel & Unusual
Punishment
Bright constitutional lines in the cruel punishment context
shift over time in order to accord with the evolving standards
of decency that mark the progress of a maturing society.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
Constitutional Law > State Constitutional Operation
HN16[ ] Fundamental Rights, Cruel & Unusual
Punishment

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN13[ ] Fundamental Rights, Cruel & Unusual
Punishment
Some bright statutory lines fail to comply with the Eighth
Amendment.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment

Science may assist the Washington Supreme Court's
understanding of not just sexual development but also
neurological development. Neuroscientists now know that all
three of the general differences between juveniles under 18
and adults recognized by Roper v. Simmons are present in
people older than 18. While not yet widely recognized by
legislatures, the court deems these objective scientific
differences between 18- to 20-year-olds on the one hand, and
persons with fully developed brains on the other hand, to be
constitutionally significant under Wash. Const. art. I, § 14.

Constitutional Law > State Constitutional Operation
HN14[ ] Fundamental Rights, Cruel & Unusual
Punishment

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
Constitutional Law > State Constitutional Operation

Under the Sentencing Reform Act of 1981, Wash. Rev. Code
ch. 9.94A, age may well mitigate a defendant’s culpability,
even if that defendant is over the age of 18. The fact that the
legislature did not have the benefit of psychological and
neurological studies showing that the parts of the brain
involved in behavior control continue to develop well into a
person’s 20s was one of the factors that compelled that
conclusion. The same scientific developments compel the
Washington Supreme Court to come to a similar conclusion

HN17[ ] Fundamental Rights, Cruel & Unusual
Punishment
Wash. Rev. Code § 10.95.030 disregards many scientific
indicia of youthfulness in favor of a single, relatively
inconsequential number: a defendant’s age. Just as an
individual’s intellectual functioning cannot be reduced to a
single numerical score, neither can an individual’s level of
maturity. Though the Washington Supreme Court sometimes

Vishal Garg A69

Page 4 of 19
2021 Wash. LEXIS 152, *1
allows legislative age limits which do not perfectly
correspond with the capacity of minors to act as adults, the
court will not hesitate to strike them down where they violate
the constitution, especially where better, more scientific age
limits are available.

Criminal Law & Procedure > ... > Murder > Aggravated
Murder > Penalties
Governments > Legislation > Interpretation
HN18[

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN21[ ] Fundamental Rights, Cruel & Unusual
Punishment
State v. Grisby held that a particularized consideration of
individual circumstances is not required for an life without
parole sentence for most criminal defendants. But youthful
defendants have been an exception to this general rule for
many years.

] Aggravated Murder, Penalties

The aggravated murder statute’s, Wash. Rev. Code §
10.95.030, rigid cutoff at age 18 combined with its mandatory
language creates an unacceptable risk that youthful
defendants without fully developed brains will receive a cruel
life without parole sentence.

Civil Procedure > Judicial
Officers > Judges > Discretionary Powers
Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN22[

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Factors
HN19[ ] Fundamental Rights, Cruel & Unusual
Punishment
No meaningful neurological bright line exists between age 17
and age 18 or between age 17 on the one hand, and ages 19
and 20 on the other hand. Thus, sentencing courts must have
discretion to take the mitigating qualities of youth—those
qualities emphasized in Miller v. Alabama and State v.
Houston-Sconiers—into account for defendants younger and
older than 18.

Constitutional Law > State Constitutional Operation

] Judges, Discretionary Powers

The Washington Supreme Court does not categorically
prohibit life without parole for 18- to 20-year-olds, but the
court requires that courts must exercise some discretion in
sentencing them.

Constitutional Law > Bill of Rights > Fundamental
Rights > Cruel & Unusual Punishment
HN23[ ] Fundamental Rights, Cruel & Unusual
Punishment
There is no meaningful cognitive difference between 17-yearolds and many 18-year-olds. When it comes to Miller v.
Alabama’s prohibition on mandatory LWOP sentences, there
is no constitutional difference either. Just as courts must
exercise discretion before sentencing a 17-year-old to die in
prison, so must they exercise the same discretion when
sentencing an 18-, 19-, or 20-year-old.

Criminal Law & Procedure > ... > Murder > Aggravated
Murder > Penalties
HN20[ ]
Operation

Constitutional

Law,

State

Constitutional

Our aggravated murder statute’s requirement of LWOP for all
defendants 18 and older, regardless of individual
characteristics, violates the state constitution.

Headnotes/Summary
Summary
WASHINGTON OFFICIAL REPORTS SUMMARY
Nature of Action: Two offenders convicted of aggravated

Vishal Garg A70

Page 5 of 19
2021 Wash. LEXIS 152, *1
first degree murder committed when they were 19 and 20
years old and sentenced to life imprisonment without the
possibility of parole (LWOP) as mandated by RCW 10.95.030
sought relief from personal restraint, arguing that mandatory
LWOP sentences were unconstitutionally cruel when applied
to youthful defendants like themselves.

Judges: AUTHOR: Justice Sheryl Gordon McCloud. WE
CONCUR: Justice Mary I. Yu, Justice Raquel MontoyaLewis, Justice G. Helen Whitener. AUTHOR: Chief Justice
Steven C. González. AUTHOR: Justice Susan Owens. WE
CONCUR: Justice Charles W. Johnson, Justice Barbara A.
Madsen, Justice Debra L. Stephens.

Supreme Court: Holding that it was unconstitutional for the
offenders to receive mandatory LWOP sentences without an
individualized inquiry to determine whether the mitigating
qualities of youth justified a downward departure, the court
grants the petitions, vacates the mandatory LWOP sentences,
and remands the cases for resentencing.

Opinion by: Sheryl Gordon McCloud

Opinion

Headnotes
WASHINGTON OFFICIAL REPORTS HEADNOTES

EN BANC
WA[1][

] [1]

Homicide > First Degree Murder > Aggravated First Degree
Murder > Punishment > Life Imprisonment Without
Parole > Youthfulness of Offender > Consideration > Necessity.

When a criminal defendant is convicted of aggravated first
degree murder committed at the age of 18, 19, or 20, Wash.
Const. art. I, § 14 requires the sentencing court to conduct an
individualized inquiry to determine whether the mitigating
qualities of youth justify a downward departure from the
sentence of life imprisonment without the possibility of parole
mandated by RCW 10.95.030. (See lead opinion of Gordon
McCloud, J., and concurring opinion of González, C.J.)
GORDON MCCLOUD, J., filed the lead opinion, in which YU,
MONTOYA-LEWIS, and WHITENER, JJ., concurred. GONZÁLEZ,
C.J., filed a concurring opinion. OWENS, J., filed a dissenting
opinion, in which JOHNSON, MADSEN, and STEPHENS, JJ.,
concurred.

Counsel: Jeffrey E. Ellis (of Law Office of Alsept & Ellis);
Timothy K. Ford (of MacDonald Hoague & Bayless); and
Rita J. Griffith, for petitioners.

¶1 GORDON MCCLOUD, J. — Dwayne Earl Bartholomew and
Kurtis William Monschke were each convicted of aggravated
first degree murder and sentenced to life in prison without
possibility of parole—a mandatory, nondiscretionary sentence
under Washington’s aggravated murder statute. RCW
10.95.030. Bartholomew was 20 years old; Monschke was 19.
Many years after their convictions, each filed a personal
restraint petition (PRP) asking us to consider whether article
I, section 14 of our state constitution or the Eighth
Amendment to the United States Constitution permits a
mandatory life without parole (LWOP) sentence for youthful
defendants like themselves. Specifically, they ask us to
decide [*2] whether the constitutional requirement that
judges exercise discretion at sentencing,1 which forbids such
mandatory LWOP sentences for those under 18, also forbids
those sentences for 18- to 21-year-old defendants.
¶2 Modern social science, our precedent, and a long history of
arbitrary line drawing have all shown that no clear line exists
between childhood and adulthood. HN1[ ] For some
purposes, we defer to the legislature’s decisions as to who
constitutes an “adult.” But when it comes to mandatory
LWOP sentences, Miller’s constitutional guaranty of an
individualized sentence—one that considers the mitigating
qualities of youth—must apply to defendants at least as old as
these defendants were at the time of their crimes. Miller v.
Alabama, 567 U.S. 460, 469-80, 132 S. Ct. 2455, 183 L. Ed.
2d 407 (2012). Accordingly, we grant both PRPs and order
that Bartholomew and Monschke each receive a new

Mary E. Robnett, Prosecuting Attorney, and Kristie Barham,
Teresa J. Chen, Michelle Hyer, Nathaniel Block, and John
Cummings, Deputies, for respondent.
1 See

Miller v. Alabama, 567 U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d
407 (2012); State v. Houston-Sconiers, 188 Wn.2d 1, 391 P.3d 409
(2017).

Vishal Garg A71

Page 6 of 19
2021 Wash. LEXIS 152, *2
release or parole.”

sentencing hearing.

FACTS
¶3 Juries convicted both petitioners of aggravated first degree
murder, Bartholomew in 1981 and Monschke in 2003.
¶4 Bartholomew told his brother that he intended to rob a
laundromat and “‘leave no witnesses.’” State v. Bartholomew,
98 Wn.2d 173, 177-78, 654 P.2d 1170 (1982), vacated, 463
U.S. 1203, 130 S. Ct. 3530, 77 L. Ed. 2d 1383 (1983),
adhered to on remand, 101 Wn.2d 631, 683 P.2d 1079 (1984).
He took $237 from the cash drawer and fatally shot an
attendant in the course of the robbery. Id. at 178. He was 20
years old.
¶5 [*3] A jury initially sentenced Bartholomew to death. Id.
at 179. But we vacated his death sentence, and then, on
remand, a jury sentenced him to LWOP, instead. Id. at 216;
Bartholomew, 101 Wn.2d at 648; State v. Bartholomew, 104
Wn.2d 844, 710 P.2d 196 (1985); see Wood v. Bartholomew,
516 U.S. 1, 4, 116 S. Ct. 7, 133 L. Ed. 2d 1 (1995).
¶6 Monschke and his friends associated themselves with the
white supremacist group “Volksfront.” State v. Monschke,
133 Wn. App. 313, 333, 135 P.3d 966 (2006). In March 2003,
the group purchased baseball bats with the goal of helping a
member earn “red [shoe]laces”—a symbol “that the wearer
had assaulted a member of a minority group.” Id. at 323
(alteration in original). Separated from Monschke, two
members of this group located and savagely beat a homeless
man with the bats, rocks, and steel-toed boots. Id. They then
fetched Monschke, who struck the man 10 to 15 times with a
bat while his friends continued to kick the man’s head. Id. at
323-24. Monschke pondered whether “‘God gives us little
brownie points for this.’” Id. at 324. The man died in the
hospital after 20 days on life support. Id. at 320. Monschke
was 19 years old.
¶7 Monschke received a mandatory LWOP sentence. Id. at
328.
¶8 Both sentences were mandatory for these young men.
HN2[ ] RCW 10.95.030 provides that any person who is
convicted of aggravated murder and not sentenced to death2
“shall be sentenced to life imprisonment without possibility of

¶9 The petitioners initially filed their PRPs in the Court of
Appeals. They claimed that mandatory LWOP is
unconstitutionally cruel when applied to youthful [*4]
defendants like themselves. They argued that developments in
neuroscience have rendered a bright line at age 18 arbitrary
and that defendants age 21 and younger should receive the
benefit of the same constitutional protections that this court
and the United States Supreme Court have recognized for
juveniles. The Court of Appeals transferred both petitions to
this court without ruling on the merits, pursuant to RAP 16.5.3
We consolidated the two petitions and now grant both.

ANALYSIS
I. BECAUSE THE PETITIONS CLAIM THE AGGRAVATED
MURDER STATUTE IS UNCONSTITUTIONAL AS APPLIED, THEY
ARE EXEMPT FROM THE ONE-YEAR TIME BAR
¶10 Both petitioners’ sentences became final long ago, and
petitioners are generally barred from filing a PRP “more than
one year after the judgment becomes final.” RCW
10.73.090(1). HN3[ ] But six enumerated exceptions temper
this one-year time bar. RCW 10.73.100. One of these
exceptions allows petitioners to file a PRP without any
deadline if the “statute that the defendant was convicted of
violating was unconstitutional on its face or as applied to the
defendant’s conduct.” RCW 10.73.100(2). This exception is
important because convictions under unconstitutional
statutes [*5] “are as no conviction at all and invalidate the
prisoner’s sentence.” In re Pers. Restraint of Runyan, 121
Wn.2d 432, 445, 853 P.2d 424 (1993).
¶11 Each petitioner challenges the constitutionality of RCW
10.95.030, the aggravated murder statute, as applied to him.
They do so for the same reason: the statute required
mandatory LWOP, while the Washington State Constitution
requires the court to exercise discretion at sentencing due to
their age. If they are correct that the aggravated murder statute
is unconstitutional as applied, then the time bar presents no
obstacle to their petitions.4 RCW 10.73.100(2).

3 Order

2 Since

these cases, we have held the death penalty unconstitutional
in Washington, State v. Gregory, 192 Wn.2d 1, 35, 427 P.3d 621
(2018) (plurality opinion), converting all death sentences in the state
to LWOP and rendering LWOP the only statutorily permissible
aggravated murder sentence for persons 18 and older.

Transferring Pet. to Supreme Court, In re Pers. Restraint of
Monschke, No. 52286-1-II (Wash. Ct. App. Jan. 22, 2019); Order
Transferring Pet. to Supreme Court, In re Pers. Restraint of
Bartholomew, No. 52354-0-II (Wash. Ct. App. Jan. 22, 2019).
4 HN4[

] A PRP petitioner must also show actual and substantial
prejudice resulting from the alleged error. In re Pers. Restraint of
Meippen, 193 Wn.2d 310, 315-16, 440 P.3d 978 (2019) (petitioner

Vishal Garg A72

Page 7 of 19
2021 Wash. LEXIS 152, *5
¶12 The dissent would draw a distinction between
“convictions”
and
“sentences”
and
restrict
the
unconstitutional statute time bar exception to only
unconstitutional “convictions.” Dissent at 7-8. But we need
not decide today whether RCW 10.73.100(2) provides a time
bar exception for other unconstitutional sentencing statutes; in
this case, the petitioners challenge not a regular sentencing
statute but the aggravated murder statute. HN5[ ] The
aggravated murder statute is different from other sentencing
statutes—it requires the State to charge and the jury (or other
trier of fact) to find the defendant “guilty” of that very same
aggravated murder charge. In other words, petitioners’
challenge to the constitutionality of [*6] the aggravated
murder statute, which criminalizes premeditated first degree
murder as aggravated murder in certain circumstances, is a
challenge to the criminal statute that they were “convicted of
violating.” RCW 10.95.030; RCW 10.73.100.5
¶13 To be sure, petitioners challenge the section of the
aggravated murder statute that requires LWOP for all
convictions, RCW 10.95.030, and not the section that defines
aggravated murder and lists aggravating circumstances, RCW
10.95.020. See State v. Goldberg, 149 Wn.2d 888, 894, 72
P.3d 1083 (2003) (“RCW 10.95.020 defines the aggravating
circumstances that make premeditated murder first degree
unable to show prejudice because record indicated resentencing
would be unlikely to reduce petitioner’s sentence). But unlike the
petitioner in Meippen, no judge has ever exercised any discretion in
sentencing Monschke or Bartholomew. Under the aggravated murder
statute, the trial court was statutorily required to sentence them each
to life without parole. If petitioners are entitled to any of the
discretionary protections afforded juvenile defendants, then the trial
court must receive a chance to exercise that discretion. And the
petitioners must receive a new sentencing proceeding that accounts
for the mitigating qualities of youth and complies with article I,
section 14.

murder punishable under that chapter rather than under the
Sentencing Reform Act of 1981, chapter 9.94A RCW.”),
overruled on other grounds by State v. Guzman Nuñez, 174
Wn.2d 707, 713, 285 P.3d 21 (2012). But they challenge the
constitutionality of the aggravated murder statute
nonetheless—the statute they were each “convicted of
violating,” in the words of RCW 10.73.100(2).
¶14 That statutory exception to the one-year time bar thus
clearly applies here. We therefore need not address the
concurrence’s point that RCW 10.73.100(6)’s exception to the
time bar applies here, also.
II. THE AGGRAVATED MURDER STATUTE IS
UNCONSTITUTIONAL AS APPLIED TO YOUTHFUL DEFENDANTS
BECAUSE IT DENIES TRIAL JUDGES DISCRETION TO CONSIDER
THE MITIGATING QUALITIES OF YOUTH
¶15 HN8[ ] Article I, section 14 of the Washington
Constitution prohibits [*7] “cruel punishment.”6 It does not
prohibit mandatory (or discretionary) LWOP sentences for all
aggravated murder defendants. State v. Hughes, 106 Wn.2d
176, 202, 721 P.2d 902 (1986); State v. Grisby, 97 Wn.2d
493, 497-98, 647 P.2d 6 (1982). But it does prohibit LWOP
sentences for “juvenile offenders.” State v. Bassett, 192
Wn.2d 67, 90, 428 P.3d 343 (2018). That state constitutional
bar against “cruel punishment,” like the Eighth Amendment
bar against “cruel and unusual punishments,” also forbids
mandatory LWOP sentences for juvenile offenders. Miller,
567 U.S. at 479. It further requires courts to exercise
“complete discretion to consider mitigating circumstances
associated with the youth of any juvenile defendant,” even
when faced with mandatory statutory language. State v.
Houston-Sconiers, 188 Wn.2d 1, 21, 391 P.3d 409 (2017).
¶16 These petitioners argue that the protection against
mandatory LWOP for juveniles should extend to them
because they were essentially juveniles in all but name at the

5 Petitioners’

claim that RCW 10.73.100(2) reaches sentences as well
as convictions is also consistent with our precedent. HN6[ ] We
have rejected a distinction between “sentence[s]” and
“conviction[s]” in the PRP time bar context as “absurd.” In re Pers.
Restraint of Skylstad, 160 Wn.2d 944, 952, 162 P.3d 413 (2007). In
Skylstad, we interpreted RCW 10.73.090(3)(b), which stated that a
criminal “‘judgment becomes final on … [t]he date that an appellate
court issues its mandate disposing of a timely direct appeal from the
conviction.’” Id. at 947 (emphasis added) (quoting RCW
10.73.090(3)(b)). The State “focuse[d] solely on one word—
conviction—rather than reading the sentence and the statute as a
whole.” Id. at 953. HN7[ ] We acknowledged that “conviction,
judgment, and sentence certainly are not interchangeable” but held
that a “direct appeal from [a] conviction cannot be disposed of until
both [the] conviction and sentence are affirmed and an appellate
court issues a mandate terminating review of both issues.” Id. at
953-54 (emphasis added).

6 HN9[

] We have “‘repeated[ly], recogni[zed] that the
Washington State Constitution’s cruel punishment clause often
provides greater protection than the Eighth Amendment.’” State v.
Bassett, 192 Wn.2d 67, 78, 428 P.3d 343 (2018) (alterations in
original) (quoting State v. Roberts, 142 Wn.2d 471, 506, 14 P.3d
713 (2000)). Specifically, we have identified that “in the context of
juvenile sentencing, article I, section 14 provides greater protection
than the Eighth Amendment.” Id. at 82. In this context, where it is
“well established” that a state constitutional provision is more
protective than the United States Constitution, there is no need to
conduct a Gunwall analysis each time a new question is presented.
State v. Mayfield, 192 Wn.2d 871, 878-79, 434 P.3d 58 (2019); see
State v. Gunwall, 106 Wn.2d 54, 720 P.2d 808 (1986). We “may
assume an independent state analysis is justified and move directly to
the merits.” Mayfield, 192 Wn.2d at 879.

Vishal Garg A73

Page 8 of 19
2021 Wash. LEXIS 152, *7
time of their crimes. As the discussion below shows, we
agree.
¶17 Preliminarily, though, we need to clarify why we take this
approach, rather than the “categorical” approach that the
dissent advances. Dissent at 9 (citing Bassett, 192 Wn.2d at
85-86, for the categorical bar test, and State v. Fain, 94 Wn.2d
387, 397, 617 P.2d 720 (1980), for the proportionality test).
¶18 HN10[ ] The categorical bar test that we used in Bassett
and the proportionality test that we used in Fain were
designed for a different purpose. We apply them to determine
when a particular [*8] punishment is categorically cruel in
violation of article I, section 14 in the first place. Bassett, 192
Wn.2d at 83. But we already know that mandatory LWOP is
unconstitutionally cruel as applied to youthful defendants.
Miller, 567 U.S. at 479-80. We need not decide whether new
constitutional protections apply in this case because the
petitioners do not ask for new constitutional protections.
Rather, they ask us to apply the existing constitutional
protections of Miller to an enlarged class of youthful
offenders older than 17.7 Accordingly, instead of the
categorical bar test, we scrutinize whether an arbitrary
distinction between 17- and 18-year-olds for purposes of
mandatory LWOP passes constitutional muster.8

7 For

a fuller discussion of the need to apply the distinct Miller
approach that we apply here, see Part III, infra.
8

It is certainly true that under the categorical bar test, we would
typically consider “(1) whether there is objective indicia of a national
consensus against the sentencing practice at issue and (2) the court’s
own independent judgment based on ‘“the standards elaborated by
controlling precedents and by the [c]ourt’s own understanding and
interpretation of the [cruel punishment provision]’s text, history, …
and purpose.”’” Bassett, 192 Wn.2d at 83 (alterations in original)
(quoting Graham v. Florida, 560 U.S. 48, 61, 130 S. Ct. 2011, 176 L.
Ed. 2d 825 (2010) (quoting Kennedy v. Louisiana, 554 U.S. 407,
421, 128 S. Ct. 2641, 171 L. Ed. 2d 525 (2008))). The dissent errs,
however, in denying that there is any national trend worthy of note
for purposes of that test. There is certainly no national majority of
state legislatures or courts prohibiting mandatory LWOP for 18- to
20-year-olds. But there is definitely an affirmative trend among
states to carve out rehabilitative space for “young” or “youthful”
offenders as old as their mid-20s. See, e.g., COLO. REV. STAT. § 181.3-407(2)(a)(III)(B) (defining “ʻ[y]oung adult offender’” to mean
“a person who is at least eighteen years of age but under twenty
years of age when the crime is committed and under twenty-one
years of age at the time of sentencing”); D.C. CODE 24-901(6)
(defining “‘[y]outh offender’” as “a person 24 years of age or
younger at the time that the person committed a crime other than
murder” or several other specific crimes); Fla. Stat. Ann. § 958.04
(permitting courts to sentence as “‘youthful offenders’” defendants
between 18 and 21 of a noncapital or “life” felony); GA. CODE. ANN.

¶19 All parties agree that neuroscience does not provide any
such distinction. The petitioners have shown that many
youthful defendants older than 18 share the same developing
brains and impulsive behavioral attributes as those under 18.
Thus, we hold that these 19- and 20-year-old petitioners [*9]
must qualify for some of the same constitutional protections
as well.

A. CONSTITUTIONAL PROTECTIONS FOR YOUTHFUL CRIMINAL
DEFENDANTS HAVE GROWN MORE PROTECTIVE OVER THE YEARS
¶20 We first look to the history of constitutional protections
against cruel sentences for juveniles under the Eighth
Amendment. While the United States Supreme Court has
drawn bright lines between various ages and types of
defendants, those bright lines have shifted over time.
¶21 At the time of the nation’s founding, “the common law
set the rebuttable presumption of incapacity to commit any
felony at the age of 14, and theoretically permitted capital
punishment to be imposed on anyone over the age of 7.”
Stanford v. Kentucky, 492 U.S. 361, 368, 109 S. Ct. 2969, 106
L. Ed. 2d 306 (1989) (citing 4 WILLIAM BLACKSTONE,

§ 42-7-2(7) (defining “‘[y]outhful offender’” to mean “any male
offender who is at least 17 but less than 25 years of age at the time of
conviction and who in the opinion of the department has the
potential and desire for rehabilitation”); Mich. Comp. Laws Ann. §
762.11(1) (permitting sentencing courts to designate certain
offenders between age 17 and 21 as “youthful trainee[s],” up to age
24 with the consent of the prosecutor); S.C. Code Ann. § 24-1910(d)(ii) (defining “‘[y]outhful offender’” to include persons
“seventeen but less than twenty-five years of age at the time of
conviction for an offense that is not a violent crime” and meets other
specifications); VT. STAT. ANN. tit. 33 § 5281 (allowing
“defendant[s] under 22 years of age” to move to be treated as a
“youthful offender”); see also CONNIE HAYEK, NAT’L INST. OF JUST.,
ENVIRONMENTAL SCAN OF DEVELOPMENTALLY APPROPRIATE
CRIMINAL JUSTICE RESPONSES TO JUSTICE-INVOLVED YOUNG
ADULTS(2016) ( analyzing and evaluating over 130 programs for
“justice-involved
young
adult[s]”
across
the
country),
https://www.ojp.gov/pdffiles1/nij/249902.pdf[https://perma.cc/DT9N
-FRPW]. “One rationale for young offender status is to protect young
offenders from the harshness and collateral consequences of criminal
prosecution and conviction.” Elizabeth S. Scott et al., Young
Adulthood as a Transitional Legal Category: Science, Social
Change, and Justice Policy, 85 Fordham L. Rev. 641, 660 n.123
(2016) (citing Raines v. State, 294 Ala. 360, 317 So. 2d 559, 561
(Ala. 1975); People v. Perkins, 107 Mich. App. 440, 309 N.W.2d 634,
636-37 (Mich. Ct. App. 1981)); see also Josh Gupta-Kagan, The
Intersection Between YOUNG Adult Sentencing and Mass
Incarceration, 4 WIS. L. REV. 669, 682-88 (2018) (“Broader trends
seek to treat a larger group of young adult offenders as a distinct
category.”).

Vishal Garg A74

Page 9 of 19
2021 Wash. LEXIS 152, *9
COMMENTARIES *23-24; MATTHEW HALE, PLEAS OF THE
CROWN 24-29 (1800)), overruled in part by Roper v.
Simmons, 543 U.S. 551, 574-75, 578, 125 S. Ct. 1183, 161 L.
Ed. 2d 1 (2005); State v. J.P.S., 135 Wn.2d 34, 37, 954 P.2d
894 (1998) (recognizing the same original common law ages
and that “Washington codified these presumptions, changing
the age of incapacity to 7 and younger and the age of
presumed capacity to 12 and older”).
¶22 The United States’ “age of majority” was largely set at
21, until it changed to 18 “for reasons quite unrelated to
capacity.” Vivian E. Hamilton, Adulthood in Law and
Culture, 91 TULANE L. REV. 55, 57 (2016). Twenty-one had
been the “near universal” age [*10] of majority in the United
States from its founding until 1942 when “wartime needs
prompted Congress to lower the age of conscription from
twenty-one to eighteen, a change that would eventually lead
to the lowering of the age of majority generally.” Id. at 64;
Pub. L. No. 77-772, 56 Stat. 108, 1019 (1942) (changing
selective service registration age to 18). The linking of
military obligation and political participation led to the
Twenty-Sixth Amendment; in 1971, it lowered the voting age
to 18. Id. at 64-65; U.S. CONST. States across the country—
including Washington—quickly followed suit, lowering the
“age of majority” to 18 for many purposes.9 RCW 26.28.010;
LAWS OF 1971, 1st Ex. Sess., ch. 292, § 1.
¶23 The age at which the Eighth Amendment prohibits
imposition of capital punishment on a youthful defendant has
also changed with time. In two plurality opinions in the late
1980s, the United States Supreme Court held that capital
punishment was unconstitutional for a 15-year-old offender,
but permissible for 16- or 17-year-old offenders. Thompson v.
Oklahoma, 487 U.S. 815, 108 S. Ct. 2687, 101 L. Ed. 2d 702
(1988) (plurality opinion); Stanford, 492 U.S. 361, 109 S. Ct.
2969, 106 L. Ed. 2d 306. Justice O’Connor, the determinative
fifth vote in each case, based the difference on her
understanding that “no national consensus forbids the
imposition of capital punishment on 16- or 17-year-old capital
murderers” [*11] as distinct from 15-year-olds. Stanford, 492
U.S. at 381 (O’Connor, J., concurring in part and concurring
in the judgment). She recognized that “[t]he day may come
when there is such a general legislative rejection of the
execution of 16- or 17-year-old capital murderers that a clear

national consensus can be said to have developed,” but she
did not believe that day had arrived in 1989. Id. at 381-82.
¶24 Sixteen years later, it had. In Roper, the Court held that
executing a defendant under 18 was categorically
unconstitutional. The court based this change on “[t]hree
general differences between juveniles under 18 and adults.”
Roper, 543 U.S. at 569. First, “‘[a] lack of maturity and an
underdeveloped sense of responsibility are found in youth
more often than in adults and are more understandable among
the young,’” resulting in “‘impetuous and ill-considered
actions and decisions.’” Id. (alteration in original) (quoting
Johnson v. Texas, 509 U.S. 350, 367, 113 S. Ct. 2658, 125 L.
Ed. 2d 290 (1993)). Second, “juveniles are more vulnerable or
susceptible to negative influences and outside pressures,
including peer pressure.” Id. (citing Eddings v. Oklahoma,
455 U.S. 104, 115, 102 S. Ct. 869, 71 L. Ed. 2d 1 (1982)).
And third, “the character of a juvenile is not as well formed as
that of an adult.” Id. at 570. Roper recognized that the
“qualities that distinguish juveniles from adults do not
disappear when an individual turns [*12] 18” but held that “a
line must be drawn.” Id. at 574. Because “[t]he logic of
Thompson extends to those who are under 18” and because
“18 is the point where society draws the line for many
purposes between childhood and adulthood,” the Court made
it “the age at which the line for death eligibility ought to rest.”
Id. at 574-75 (citing Thompson, 487 U.S. at 833-38).
¶25 As Eighth Amendment jurisprudence forbidding the
execution of adolescent offenders developed, the law
regarding intellectually disabled defendants followed a
parallel track.10 The United States Supreme Court had
allowed execution of the intellectually disabled in 1989,
Penry v. Lynaugh, 492 U.S. 302, 340, 109 S. Ct. 2934, 106 L.
Ed. 2d 256 (1989) (plurality portion), abrogated by Atkins v.
Virginia, 536 U.S. 304, 321, 122 S. Ct. 2242, 153 L. Ed. 2d
335 (2002). As in Stanford, the majority recognized that “a
national consensus against execution of the mentally retarded
may someday emerge reflecting the ‘evolving standards of
decency that mark the progress of a maturing society’” but did
not believe such a consensus existed in 1989. Id.
¶26 That consensus had arrived by 2002. As Roper signaled a

10 For

9 Several

states continue to recognize an age of majority older than
18. See, e.g., MISS. CODE ANN. § 1-3-27 (defining “minor” as “any
person, male or female, under twenty-one years of age”); Ala. Code
§ 26-1-1 (setting age of majority at 19); Neb. Rev. Stat. § 43-245
(“Age of majority means nineteen years of age.”). As we discuss in
further detail below, the statutory “age of majority” is riddled with
exceptions.

many years the Supreme Court spoke of the intellectually
disabled as “mentally retarded.” Penry v. Lynaugh, 492 U.S. 302,
109 S. Ct. 2934, 106 L. Ed. 2d 256 (1989), abrogated by Atkins v.
Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002). It
has since recognized and approved a change in terminology to
“intellectually disabled” to “describe the identical phenomenon.”
Hall v. Florida, 572 U.S. 701, 704, 134 S. Ct. 1986, 188 L. Ed. 2d
1007 (2014). We use the term “intellectually disabled” throughout
this opinion.

Vishal Garg A75

Page 10 of 19
2021 Wash. LEXIS 152, *12
change from Stanford, so Atkins signaled a change from
Penry. 536 U.S. at 321 (holding that execution of the
intellectually disabled violates the Eighth Amendment).
Indeed, Roper relied in part on Atkins as an example of
“society’s evolving standards of decency.” 543 U.S. at 563.
Atkins provided an example [*13] of changing standards,
even though the “rate of change in reducing the incidence of
the juvenile death penalty” had been much slower than the
pace at which states abolished capital punishment for the
intellectually disabled. Id. at 565.
¶27 The changes from Stanford and Penry to Atkins and
Roper resulted from a perceived change in direction across
the country. Recognizing the shift, the Court observed that
“[i]t is not so much the number of these States [that forbade
execution of the intellectually disabled] that is significant, but
the consistency of the direction of change.”11 Atkins, 536 U.S.
at 315; see Bassett, 192 Wn.2d at 86 (quoting Atkins for this
same proposition).
¶28 Clearly, HN12[ ] bright constitutional lines in the cruel
punishment context shift over time in order to accord with the
“evolving standards of decency that mark the progress of a
maturing society.” Trop v. Dulles, 356 U.S. 86, 100-01, 78 S.
Ct. 590, 2 L. Ed. 2d 630 (1958) (plurality opinion).

B. THE COURT WILL NOT NECESSARILY DEFER TO LEGISLATIVE
BRIGHT-LINE DRAWING WHEN DETERMINING WHAT
CONSTITUTES CRUEL PUNISHMENT
¶29 Roper set a bright constitutional line based on “where
society draws the line for many purposes between childhood
and adulthood.” 543 U.S. at 574. HN13[ ] But some bright
statutory lines fail to comply with the Eighth Amendment.
¶30 In Hall v. Florida, 572 U.S. 701, 134 S. Ct. 1986, 188 L.
Ed. 2d 1007 (2014), for example, a Florida court sentenced a
defendant [*14] to death, despite his unchallenged evidence
of an intellectual disability. The record contained ample

11 To

be sure, the shift that led to Roper and Atkins concerned the
cruelty of capital punishment. But since those cases, the United
States Supreme Court and our court have recognized the similarities
between capital punishment and LWOP. Graham, 560 U.S. at 69-70
(an LWOP sentence “‘means denial of hope; it means that good
behavior and character improvement are immaterial; it means that
whatever the future might hold in store for the mind and spirit of [the
convict], he will remain in prison for the rest of his days’” (alteration
in original) (quoting Naovarath v. State, 105 Nev. 525, 526, 779 P.2d
944 (1989))); Bassett, 192 Wn.2d 87-88 (same). HN11[ ] And
under the Washington Constitution, LWOP sentences for juveniles
are impermissibly cruel. Bassett, 192 Wn.2d at 91.

evidence of this intellectual disability. Id. But a Florida statute
required that “as a threshold matter, Hall show an IQ
[intelligence quotient] test score of 70 or below before
presenting any additional evidence of his intellectual
disability.” Id. at 707.
¶31 In evaluating the constitutionality of this rigid bright line
of an IQ of 70, the Court first reiterated that the intellectually
disabled “may not … receive the law’s most severe sentence.”
Id. at 709 (citing Atkins, 536 U.S. at 318). The Court then
stated the issue presented: “how intellectual disability must be
defined in order to implement the[ ] principles and the holding
of Atkins.” Id. at 709-10. To analyze the cutoff rule, the Court
considered “psychiatric and professional studies that elaborate
on the purpose and meaning of IQ scores to determine how
the scores relate to the holding of Atkins”—it was “proper to
consult the medical community’s opinions.” Id. Though “[i]t
is the Court’s duty to interpret the Constitution … it need not
do so in isolation.” Id. at 721. “The legal determination of
intellectual disability is distinct from a medical diagnosis, but
it is informed by the medical [*15] community’s diagnostic
framework.” Id.
¶32 Considering three criteria by which the medical
community defines intellectual disability,12 “Florida’s rule
disregard[ed] established medical practice in two interrelated
ways. It [took] an IQ score as final and conclusive evidence of
a defendant’s intellectual capacity, when experts in the field
would consider other evidence” and it “relie[d], on a
purportedly scientific measurement of the defendant’s
abilities, his IQ score, while refusing to recognize that the
score is, on its own terms, imprecise.” Id. at 712. By failing to
account for other factors, “and setting a strict cutoff at 70,
Florida ‘[went] against the unanimous professional
consensus.’” Id. at 722. “An IQ score is an approximation, not
a final and infallible assessment of intellectual functioning.”
Id.
¶33 Though IQ was “of considerable significance,” state use
of IQ scores to determine death eligibility “must afford these
test scores the same studied skepticism that those who design
and use these tests do, and understand that an IQ test score
represents a range rather than a fixed number.” Id. at 723. It
was unconstitutional “to execute a man because he scored 71
instead of 70 on an IQ test.” Id. at 724.
¶34 Like the Florida statute at [*16] issue in Hall, our

12 These

criteria were “significantly subaverage intellectual
functioning, deficits in adaptive functioning (the inability to learn
basic skills and adjust behavior to changing circumstances), and
onset of these deficits during the developmental period.” Hall, 572
U.S. at 710 (citing Atkins, 536 U.S. at 308 n.3).

Vishal Garg A76

Page 11 of 19
2021 Wash. LEXIS 152, *16
aggravated murder statute sets a flat cutoff line in determining
a defendant’s sentence: age 18. RCW 10.95.030(3)(a)(ii). Yet
many other statutes draw lines at many other ages between 8
and 26. We next turn to these statutes to get a sense of how
our legislature has defined the “age of majority.”

C. THE CONCEPT OF AN “AGE OF MAJORITY” IS INHERENTLY
AND NECESSARILY FLEXIBLE
¶35 Roper set 18 as a constitutional bright line for death
eligibility because it “is the point where society draws the line
for many purposes between childhood and adulthood.” 543
U.S. at 574. Washington calls that general line the “age of
majority”: “[e]xcept as otherwise specifically provided by
law, all persons shall be deemed and taken to be of full age
for all purposes at the age of eighteen years.” RCW
26.28.010.13 But as it turns out, areas “otherwise specifically
provided by law” abound.
¶36 The Washington Criminal Code itself draws lines
between many distinct ages besides 17 and 18. It renders
children under 8 incapable of committing crime. RCW
9A.04.050. And children between 8 and 12 are presumed
incapable of committing crime. Id. The Juvenile Justice Act
of 1977 defines “juvenile,” “youth,” and “child” all
synonymously to mean “any individual who is under the
chronological [*17] age of eighteen years and who has not
been previously transferred to adult court.” RCW
13.40.020(15). But individuals transferrable to such adult
court may be as young as 15 if charged with a serious violent
offense—or any age if charged with murder or custodial
assault while already under sentence.14 RCW 13.40.110(1)(a),
(b). When a child remains in juvenile court, that juvenile court
may, in some scenarios, maintain “residual” jurisdiction until
the child reaches age 25. RCW 13.04.030(1)(e)(v)(C)(II).
¶37 Other criminal statutes draw the line between
“childhood” and “adulthood” at other ages. See, e.g., RCW
9A.44.079(1) (setting oldest possible age of a victim of the
crime, “Rape of a child,” at 15); RCW 66.44.290(4) (making it

13 Some

specific enumerated “purposes” for which age 18 is relevant
include allowing 18-year-olds to “enter into any marriage contract
without parental consent,” “execute a will,” “vote in any election if
authorized by the Constitution,” and “enter into any legal contractual
obligation and to be legally bound thereby.” RCW 26.28.015(1)-(4).
Many of these purposes also include the tautological qualification “if
otherwise qualified by law.” RCW 26.28.015(1)-(3).
14 Until

2018, transfer to adult court was mandatory for 16- and 17year-olds who committed class A felonies, as well as 17-year-olds
who committed various other crimes. LAWS OF 2018, ch. 162, § 4.

a misdemeanor for persons under 21 to purchase liquor).
Plenty of examples outside the criminal law context exist as
well. See, e.g., RCW 46.20.031(1) (setting minimum age to
receive a driver’s license at 16), .265(2) (suspending juvenile
driving privileges until various ages between 17 and 21);
RCW 70.24.110 (allowing those 14 or older to obtain medical
care for sexually transmitted diseases without parental
consent); RCW 74.13.031(12) (providing government
authority for “adoption support benefits, or relative
guardianship subsidies on behalf of youth ages eighteen to
twenty-one years” who meet certain [*18] conditions), (16)
(providing government authority to “provide independent
living services to youths, including individuals who have
attained eighteen years of age, and have not attained twentythree years of age”); see also 42 U.S.C. § 18014(d)(2)(E)
(providing Affordable Care Act medical coverage to “adult
children” through age 26).
¶38 These numerous meanings of “child” and “adult” located
throughout the code do not reflect inconsistency. They reflect
the need for flexibility in defining the nebulous concept of
“adulthood” or “majority.” Accordingly, dividing lines are set
at different ages in different contexts. Among these many
ages of “majority” that Washington chooses for various
contexts, the age at which our legislature has required
mandatory LWOP for defendants convicted of aggravated
murder sits at 18.15 RCW 10.95.030(3).

D. NO MEANINGFUL DEVELOPMENTAL DIFFERENCE EXISTS
BETWEEN THE BRAIN OF A 17-YEAR-OLD AND THE BRAIN OF AN
18-YEAR-OLD
¶39 Roper considered juveniles’ lack of maturity and
responsibility, their vulnerability to negative influences, and
their transitory and developing character when it increased the
minimum age for death eligibility from 16 to 18. 543 U.S. at
569-70. All three of these factors [*19] weigh in favor of
offering similar constitutional protections to older offenders,
also, because neurological science recognizes no meaningful
distinction between 17- and 18-year-olds as a class.
¶40 HN14[ ] We have already concluded that under the
Sentencing Reform Act of 1981, ch. 9.94A RCW, “age may
well mitigate a defendant’s culpability, even if that defendant

15 It

was initially the United States Supreme Court, and not the
Washington Legislature, who set this line at 18. Until Miller, RCW
10.95.030 required LWOP for all defendants without taking age into
account at all. LAWS OF 2014, ch. 130, § 9. That statute was updated
in 2014 with what has been referred to as the “Miller-fix”: it brought
Washington statutory law into compliance with the constitutional
principles of Miller. See, e.g., Bassett, 192 Wn.2d at 77.

Vishal Garg A77

Page 12 of 19
2021 Wash. LEXIS 152, *19
is over the age of 18.” State v. O’Dell, 183 Wn.2d 680, 695,
358 P.3d 359 (2015). The fact that the legislature “did not
have the benefit of psychological and neurological studies
showing that the ‘“parts of the brain involved in behavior
control”’ continue to develop well into a person’s 20s” was
one of the factors that compelled that conclusion. Id. at 69192 (footnote omitted) (quoting Miller, 567 U.S. at 472
(quoting Graham v. Florida, 560 U.S. 48, 68, 130 S. Ct. 2011,
176 L. Ed. 2d 825 (2010))). The same scientific developments
compel us to come to a similar conclusion under article I,
section 14.

young people differ from adults in systematic ways directly
relevant to their relative culpability, deterability, and potential
for rehabilitation.”); B.J. Casey & Kristina Caudle, The
Teenage Brain: Self Control, 22 CURRENT DIRECTIONS IN
PSYCHOL. SCI. 82 (2013) (discussing overgeneralizations of
adolescent brains but never mentioning what age is meant by
“adolescence”). Maroney criticizes the way courts have used
neuroscience to justify their conclusions and argues that “the
impact of adolescent brain science on juvenile justice has
been strongly cabined by the extrinsic reality of legal
doctrine.” Maroney, supra, at 144-45.

¶41 O’Dell cited articles discussing neurological science
extensively. Id. at 692 n.5 (citing Terry A. Maroney, The
False Promise of Adolescent Brain Science in Juvenile
Justice, 85 Notre Dame L. Rev. 89, 152 & n.252 (2009); MIT
Young Adult Development Project: Brain Changes, MASS.
INST.
OF
TECH.,
http://hr.mit.edu/static/worklife/youngadult/brain.html (last
visited Mar. 8, 2021); Jay N. Giedd, Structural Magnetic
Resonance Imaging of the Adolescent Brain, 1021 ANN. N.Y.
ACAD. SCI. 77 [*20] (2004)). The parties bring additional,
more recent studies, to our attention. See, e.g., Pet’r’s Suppl.
Br. (Bartholomew) at 9-10 (citing, e.g., Kathryn Monahan et
al., Juvenile Justice Policy and Practice: A Developmental
Perspective, 44 Crime & Just. 577, 582 (2015); Alexandra O.
Cohen et al., When Does a Juvenile Become an Adult?
Implications for Law and Policy, 88 Temple L. Rev. 769
(2016); Elizabeth S. Scott et al., Young Adulthood as a
Transitional Legal Category: Science, Social Change, and
Justice Policy, 85 Fordham L. Rev. 641 (2016)). The
overarching conclusion compelled by these sources is clear:
“biological and psychological development continues into the
early twenties, well beyond the age of majority.” Scott, supra,
at 642.

¶43 The State’s conclusion from these articles appears to be
that because there is no accounting for the brain development
and maturity of particular individuals, we may as well [*22]
give up and let the legislature draw its arbitrary lines—
because they will necessarily be arbitrary no matter where
they are drawn. But giving up would abdicate our
responsibility to interpret the constitution. The State is correct
that HN15[ ] every individual is different, and perhaps not
every 20-year-old offender will deserve leniency on account
of youthfulness. But the variability in individual attributes of
youthfulness are exactly why courts must have discretion to
consider those attributes as they apply to each individual
youthful offender. That is why mandatory sentences for
youthful defendants are unconstitutional. Miller, 567 U.S. at
477-80 (requiring consideration of the specific youthful
characteristics of each individual defendant); HoustonSconiers, 188 Wn.2d at 23 (requiring consideration at
sentencing of defendant’s individual youthful characteristics
and many other individual factors related to culpability).

¶42 The State does not dispute this conclusion. Rather, it
contends that Miller is not about “brain science” at all and it
cites experts who resist the use of neuroscience in legal
decision-making altogether. Suppl. Br. of Resp’t at 12-13.
While all three articles cited by the State emphasize the
difficulty of analyzing individual adolescent brains, they
support the petitioners’ position that there is no distinctive
scientific difference, in general, between the brains of a 17year-old and an 18-year-old. Richard J. Bonnie & Elizabeth S.
Scott, The Teenage Brain: [*21] Adolescent Brain Research
& the Law, 22 CURRENT DIRECTIONS IN PSYCHOL. SCI. 158,
161 (2013) (“So far, neuroscience research provides group
data showing a developmental trajectory in brain structure and
function during adolescence and into adulthood.”); Maroney,
supra, at 94 (“Rather than raising deep and likely unsolvable
questions about human agency, [neuroscience] simply
reinforces the (once) noncontroversial idea that, as a group,

¶44 In fact, this court has already invalidated age 18 as an
arbitrary bright line in the context of capacity to consent to
abortion. In State v. Koome, 84 Wn.2d 901, 530 P.2d 260
(1975) (plurality opinion), we evaluated the constitutionality
of a statute that required pregnant women under 18 to get
parental consent to obtain an abortion. We held that such an
abridgment of the young [*23] woman’s right to make this
decision about her reproductive health was unconstitutional.
Id. at 909-10.16 We noted that “[p]arental authority wanes
gradually as a child matures; it does not suddenly disappear at
adulthood. Similarly, the ability to competently make an
important decision, such as that to have an abortion, develops

16 The

lead opinion received four votes. Koome, 84 Wn.2d at 914.
The concurrence, which provided the fifth vote, agreed that it would
“reach the same result as the [lead] opinion regarding the
constitutional infirmities of the present statute.” Id. (Finley, J.,
concurring). It added that while the State could conceivably draft an
abortion restriction consistent with the constitution, the age-related
parental consent requirement considered by the court was
unconstitutional. Id. at 915-17.

Vishal Garg A78

Page 13 of 19
2021 Wash. LEXIS 152, *23
slowly and at different rates in different individuals.” Id. at
910-11. While we acknowledged that the State may “create
age limits which do not perfectly correspond with the capacity
of minors to act as adults,” we held that “a subjective inquiry
into the maturity of each individual minor is a practical
impossibility, and any flat age limit is necessarily arbitrary.”
Id. at 911. “In such circumstances imprecision in age
classifications may be permissible, perhaps even where
important rights are affected, because it is inevitable.” Id. But,
in the abortion context, “these reasons for setting arbitrary age
requirements [were] not present” because “[t]he age of
fertility provides a practical minimum age requirement for
consent to abortion, reducing the need for a legal one.” Id.
(citing Ballard v. Anderson, 4 Cal. 3d 873, 883, 484 P.2d
1345, 95 Cal. Rptr. 1 (1971)).
¶45 HN16[ ] Science may assist our understanding of not
just sexual development but also neurological development.
Neuroscientists now [*24] know that all three of the “general
differences between juveniles under 18 and adults”
recognized by Roper are present in people older than 18. 543
U.S. at 569. While not yet widely recognized by legislatures,
we deem these objective scientific differences between 18- to
20-year-olds (covering the ages of the two petitioners in this
case) on the one hand, and persons with fully developed
brains on the other hand, to be constitutionally significant
under article I, section 14.

measuring the neurobiological maturity of an individual
adolescent because there is too much variability within age
groups and across development. Indeed, we do not currently
have accurate behavioral measures of maturity.” (citation
omitted)). Though a categorical constitutional rule may be
appropriate prohibiting LWOP sentences for offenders
younger than 18, Bassett, 192 Wn.2d at 90, the petitioners
have neither argued nor shown that LWOP would be
categorically unconstitutional as applied to older defendants.
¶48 What they have shown is that HN19[ ] no meaningful
neurological bright line exists between age 17 and age 18 or,
as relevant here, between age 17 on the one hand, and ages 19
and 20 on the other hand. Thus, sentencing courts must have
discretion to take the mitigating qualities of youth—those
qualities emphasized in Miller and Houston-Sconiers—into
account for defendants younger and older than 18. [*26] Not
every 19- and 20-year-old will exhibit these mitigating
characteristics, just as not every 17-year-old will. We leave it
up to sentencing courts to determine which individual
defendants merit leniency for these characteristics. HN20[ ]
Our aggravated murder statute’s requirement of LWOP for all
defendants 18 and older, regardless of individual
characteristics, violates the state constitution.17
¶49 Because the aggravated murder statute that petitioners
were convicted of violating is unconstitutional as applied to
their conduct, the one-year time bar for collateral attacks does
not apply. RCW 10.73.100(2).18

E. OUR CONSTITUTION’S PROTECTION AGAINST LIFE WITHOUT
PAROLE SENTENCES EXTENDS TO YOUTHFUL DEFENDANTS
OLDER THAN 18

III. WE DO NOT ABANDON THE CATEGORICAL BAR
ANALYSIS; OUR DECISION “FLOWS STRAIGHTFORWARDLY
FROM OUR PRECEDENTS” AS DID THE DECISION IN MILLER

WA[1][ ] [1] ¶46 Much like the Florida IQ cutoff in Hall,
HN17[ ] RCW 10.95.030 disregards many scientific indicia
of youthfulness in favor of a single, relatively inconsequential
number: a defendant’s age. Just as “an individual’s
intellectual functioning cannot be reduced to a single
numerical score,” neither can an individual’s level of
maturity. Hall, 572 U.S. at 713. Though we sometimes allow
legislative “age limits which do not perfectly correspond with
the capacity of minors to act as adults,” we will not hesitate to
strike them down where they violate the constitution,
especially where better, more scientific age limits are
available. Koome, 84 Wn.2d at 911. HN18[ ] We hold that
the aggravated murder statute’s rigid [*25] cutoff at age 18
combined with its mandatory language creates an
unacceptable risk that youthful defendants without fully
developed brains will receive a cruel LWOP sentence.

¶50 The dissent accuses us of manufacturing a “false
distinction to sidestep Bassett” by applying Miller to a new
class of defendants without invoking Fain’s proportionality
test or Bassett’s categorical bar test. Dissent at 10-11. But this

¶47 But we also recognize that every individual is different.
See, e.g., Bonnie & Scott, supra, at 161 (“[T]he research does
not currently allow us to move from that group data to

17 Contrary

to the dissent’s accusation, we do not overrule Grisby.
HN21[ ] Grisby held that a “particularized consideration” of
individual circumstances is not required for an LWOP sentence for
most criminal defendants. 97 Wn.2d at 497. But youthful defendants
have been an exception to this general rule for many years. See, e.g.,
Miller, 567 U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d 407; HoustonSconiers, 188 Wn.2d 1, 391 P.3d 409. Today’s ruling only expands
the class of defendants who qualify for that existing exception.
18 Petitioners

suggest that they also meet the time bar exceptions for
sentence in excess of jurisdiction and retroactive change in the law
under RCW 10.73.100(5) and (6). Am. PRP (Monschke) at 24-25;
Pet’r’s Suppl. Br. (Bartholomew) at 18-19; see concurrence. Because
we hold the unconstitutional statute exception applies, we need not
rule on these other exceptions to the statutory time bar.

Vishal Garg A79

Page 14 of 19
2021 Wash. LEXIS 152, *26
distinction (between cases subject to the categorical bar
analysis and cases subject to a different analysis) is not new.
¶51 Contrary to the dissent’s characterization, dissent at 10,
Miller itself expressly declined to apply a categorical [*27]
bar analysis. It did not “categorically bar a penalty for a class
of offenders or type of crime—as, for example, [the Supreme
Court] did in Roper or Graham.” 567 U.S. at 483. Instead,
Miller “mandate[d] only that a sentencer follow a certain
process—considering an offender’s youth and attendant
characteristics—before imposing a particular penalty.” Id.
This made Miller “different from the typical [case] in which
we have tallied legislative enactments”—in other words,
different from Bassett and other categorical rule cases.19 Id.
¶52 In fact, Miller explicitly clarified that it “flow[ed]
straightforwardly” from “the principle of Roper, Graham, and
our individualized sentencing cases that youth matters for
purposes of meting out the law’s most serious punishments.”
Id. (emphasis added). It did not flow from a tallying of
legislative enactments across the country; it did “not
scrutinize[ ] or rel[y] in the same way on legislative
enactments.” Id. (citing Sumner v. Shuman, 483 U.S. 66, 107
S. Ct. 2716, 97 L. Ed. 2d 56 (1987); Lockett v. Ohio, 438 U.S.
586, 98 S. Ct. 2954, 57 L. Ed. 2d 973 (1978); Eddings, 455
U.S. 104, 102 S. Ct. 869, 71 L. Ed. 2d 1).
¶53 As the discussion above shows, neither do we.
¶54 Instead our decision today, like the Miller decision, draws
from the line of cases that Miller cited for its “individualized
sentencing” principle. Those decisions all relied on [*28] the
rule, first announced in Woodson v. North Carolina, 428 U.S.
280, 304, 96 S. Ct. 2978, 49 L. Ed. 2d 944 (1976) (plurality
opinion), that “consideration of the character and record of the
individual offender and the circumstances of the particular
offense” are “a constitutionally indispensable part of the
process of inflicting the penalty of death.” And those
decisions all applied that rule to invalidate a state death
penalty sentencing scheme, irrespective of any national
consensus for or against the specific statute or sentencing

19 The

dissent characterizes Bassett as “‘enlarg[ing]’” the Miller class
to include “‘permanent[ly], incorrigibl[e]’” youths. Dissent at 11
(quoting Bassett, 192 Wn.2d at 72, 88-89). But Miller and Bassett
are not equivalent rulings about different classes—they differ in
kind. Bassett categorically prohibited LWOP for defendants 18 and
younger. 192 Wn.2d at 91. Miller disavowed categorical rules,
instead, mandating only “a certain process” be followed “before
imposing a particular penalty.” 567 U.S. at 483. In this regard, our
decision today is like Miller and not like Bassett. HN22[ ] We do
not categorically prohibit LWOP for 18- to 20-year-olds, but we
require that courts must exercise some discretion in sentencing them.

practice. Sumner, 483 U.S. at 83-85 (striking down a Nevada
statute requiring the death penalty for defendants convicted of
murder while serving a life sentence without possibility of
parole); Lockett, 438 U.S. at 608 (striking down an Ohio
statute that limited mitigating circumstances a trial court
could consider before imposing death); Eddings, 455 U.S. at
113 (requiring sentencing courts to consider mitigating
evidence, even where that mitigating evidence did not support
a legal excuse from criminal liability). Miller then applied that
principle of “individualized sentencing,” developed in the
death penalty context, to the juvenile LWOP context. 567
U.S. at 483 (citing Sumner, 483 U.S. at 66; Lockett, 438 U.S.
at 602-08; Eddings, 455 U.S. at 110-17).
¶55 As the discussion above also shows, so do we.20 In fact,
we repeat the Miller approach today. Our decision that
individual youthful characteristics [*29] may mitigate the
sentences of these two young petitioners “flows
straightforwardly from our precedents.” Id. No Fain or
categorical bar analysis is necessary to reach this decision.

CONCLUSION
¶56 HN23[ ] There is no meaningful cognitive difference
between 17-year-olds and many 18-year-olds. When it comes
to Miller’s prohibition on mandatory LWOP sentences, there
is no constitutional difference either. Just as courts must
exercise discretion before sentencing a 17-year-old to die in
prison, so must they exercise the same discretion when
sentencing an 18-, 19-, or 20-year-old. We grant Monschke’s
and Bartholomew’s PRPs and vacate their mandatory LWOP
sentences. We remand each case for a new sentencing hearing
at which the trial court must consider whether each defendant
was subject to the mitigating qualities of youth.
YU, MONTOYA-LEWIS, and WHITENER, JJ., concur.
Concur by: Steven C. González

20 Our

decision in Houston-Sconiers took that same Miller approach
of valuing “individualized sentencing” and applying it to juveniles
who were not sentenced to LWOP. 188 Wn.2d at 20. Although the
Supreme Court had “not applied the rule that children are different
and require individualized sentencing consideration of mitigating
factors” in the exact situation before the court, we applied the Miller
principle—the “requirement to treat children differently, with
discretion and with consideration of mitigating factors”—to that nonLWOP situation. Id. We did not analyze statutes from other states,
nor did we turn to Fain’s proportionality test. Our decision flowed
naturally from Miller and applied its principles in a new context.

Vishal Garg A80

Page 15 of 19
2021 Wash. LEXIS 152, *29
members of this court.

Concur

¶57 [1]GONZÁLEZ, C.J. (concurring) — I concur with the lead
opinion that the petitioners are entitled to a new sentencing
hearing to determine whether their ages at the time of their
crimes is a mitigating factor [*30] justifying a downward
departure from the standard sentence. I part company,
however, with its analysis of the retroactivity of State v.
O’Dell, 183 Wn.2d 680, 358 P.3d 359 (2015). As the dissent
properly notes, RCW 10.73.100(2) applies to violations of
substantive criminal statutes that have been found
unconstitutional, not sentencing statutes. However, I continue
to believe that O’Dell is a significant change in the law that
applies retroactively when material. In re Pers. Restraint of
Light-Roth, 191 Wn.2d 328, 338-39, 422 P.3d 444 (2018)
(GONZÁLEZ, J., concurring) (citing RCW 10.73.100(6)).
Accordingly, I concur.
Dissent by: Susan Owens

¶59 At the heart of this case is the important question of when
a person should be held fully accountable as an adult. This is
a question that requires a meticulous examination of a number
of scientific, moral, ethical, and practical considerations. Our
court is not a legislature, and it is insufficiently equipped to
decide this issue on selectively presented evidence put forth
by limited parties on a constrained schedule. The lead opinion
broadly seeks [*32] to protect against the “unacceptable risk
that youthful defendants without fully developed brains will
receive a cruel LWOP sentence.” Lead opinion at 29. But I
struggle to identify at what precise age we will stop redrawing
these lines based on this brain development evidence, be it 20,
22, 25, or even older. I further caution that today’s decision
may eventually compel us to revisit and invalidate a
staggering number of LWOP and Sentencing Reform Act of
1981 (SRA), ch. 9.94A RCW, sentences for this growing
group under our recent decisions in State v. Bassett21 and
State v. Houston-Sconiers.22 This task would tremendously
burden the State’s resources and the victims’ families. I
respectfully dissent.
ANALYSIS

Dissent

¶58 OWENS, J. (dissenting) — Kurtis Monschke and Dwayne
Bartholomew committed brutal murders decades ago. At the
time, they were 19 and 20 years old, respectively. They were
not children. Under Washington law, when an individual turns
18 years old, they are empowered to make a range of lifealtering decisions: suddenly, they can form contracts, drop out
of school, get married, work a hazardous job, and serve in the
military. But at this same moment, they also obtain the full
responsibilities and consequences of adulthood, and the court
will no longer intervene on their behalf on the basis of age.
Nonetheless, the lead opinion holds today that we must create
an exception in treating these [*31] individuals as adults
when they commit aggravated murder between the ages of 18
and 20. Mandatory life without parole (LWOP) sentences are
now prohibited for this age category. The lead opinion crafts
this new rule by filtering our state constitution’s “cruel
punishment” prohibition through a handful of scientific
studies and circumvents the reality that no legislatures or
courts in the other 49 states have ever recognized such a
protection. Wash. Const. art. I, § 14. As the final arbiters of
what “cruel” means under article I, section 14 of our state
constitution, this court must use a disciplined and evenhanded
approach in evaluating its meaning. If we do not, we risk
transforming our protection against “cruelty” into whatever is
supported by a smattering of studies and five concurring

I. The Legislature’s Determination of the Age of Majority
Encapsulates More Considerations Than When a Youth’s
Brain Is Fully Developed
¶60 The lead opinion today announces a broad new
constitutional safeguard protecting “youthful defendants [ages
18 to 20] without fully developed brains.” Lead opinion at 29.
In doing so, the lead opinion extends a protection to convicted
murderers that may shield these individuals from the full legal
consequences of their actions. I note that once an individual
turns [*33] 18 years old in Washington, he or she can form
contracts, drop out of school, enter into marriage, vote in an
election, obtain a driver’s license, work a hazardous job, and
enlist in the military. Upon turning 18, individuals receive all
of these rights of adulthood, regardless of whether their brains
are fully developed. At 18, the court will no longer interfere
with the exercise of these rights on the basis of age.
Additionally, these rights are accompanied by the
responsibilities and consequences of adulthood.

21 192

Wn.2d 67, 428 P.3d 343 (2018) (holding that all LWOP
sentences for juveniles are unconstitutionally cruel under the
Washington Constitution).
22 188

Wn.2d 1, 391 P.3d 409 (2017) (holding that courts have full
discretion to depart from juvenile SRA sentences based on
“youthfulness”).

Vishal Garg A81

Page 16 of 19
2021 Wash. LEXIS 152, *33
¶61 Children are different, certainly. But Monschke and
Bartholomew were not children when they brutally murdered
their victims. When a child becomes an adult is a question
that necessarily involves significant input from a variety of
disciplines. The lead opinion today casts aside this longstanding deference to the legislature because it believes that
the current line at 18 is “arbitrary.” Lead opinion at 24-25.
The lead opinion contends the line at 18 is arbitrary because
there is “no distinctive scientific difference, in general,
between the brains of a 17-year-old and an 18-year-old”; and
it notes that at 18, these youths’ brains are not fully
developed, which leads to decision-making [*34] based on
immaturity and impulsivity. Lead opinion at 25. But the lead
opinion assumes that the legislature did not already know or
account for this when it enacted the age of majority. For
example, the legislature may have set the age of majority
based on when an individual has sufficient brain development,
experience, and legal autonomy to make important life
decisions, like deciding to commit a crime. Today’s reasoning
ignores the possibility that the age of majority is based less on
scientific exactitude, and more on “society’s judgments about
maturity and responsibility.” Davis v. Dep’t of Licensing, 137
Wn.2d 957, 974, 977 P.2d 554 (1999).

we invalidated all LWOP sentences for juveniles, reasoning
that courts are incapable of accurately making this
determination. Bassett, 192 Wn.2d at 89 (quoting Roper v.
Simmons, 543 U.S. 551, 573, 125 S. Ct. 1183, 161 L. Ed. 2d 1
(2005)). Given the difficulty even “expert psychologists” have
in making this determination, I do not foresee the courts
adequately exercising discretion this time around. Id.

¶62 In prohibiting mandatory LWOP, the lead opinion now
requires courts to exercise discretion in imposing LWOP
sentences on 18-20 year olds, as it asserts that we must
provide individualized sentencing for defendants “at least as
old as [20].” Lead opinion at 2, 29-30 (citing Miller v.
Alabama, 567 U.S. 460, 469-80, 132 S. Ct. 2455, 183 L. Ed.
2d 407 (2012)).

¶66 As the consequences of today’s decision are potentially
severe, I would exercise restraint in interpreting our state
constitution. I believe that the people of Washington and their
representatives are fully capable of enacting laws that reflect
the “‘evolving standards of decency that mark the progress of
a maturing society.’” Miller, 567 U.S. at 494 (quoting Estelle
v. Gamble, 429 U.S. 97, 102, 97 S. Ct. 285, 50 L. Ed. 2d 251
(1976)). And if the legislature is not up to this task, we
nonetheless have sufficient constitutional doctrine to guide us
in addressing these matters, as I later address.

¶63 I first note that nowhere does Miller require that we draw
a line at 20. Lead opinion at 2. Further, the lead opinion’s
requirement of “individualized sentenc[ing],” conflicts with
our precedent, State v. Grisby, 97 Wn.2d 493, 497, 647 P.2d 6
(1982), which held that adults are not entitled to such a
“‘particularized consideration’” under our state constitution’s
cruel punishment prohibition. Lead opinion [*35] at 2, 30
n.17 (quoting Grisby, 97 Wn.2d at 497). Thus, the court today
overrules precedent that dictates that adults are not entitled to
individualized sentencing, despite the fact that petitioners
failed to make the requisite showing that Grisby is incorrect
or harmful. State v. Barber, 170 Wn.2d 854, 863, 248 P.3d
494 (2011).
¶64 I further note the surprising optimism about the courts’
ability to exercise discretion in imposing an LWOP sentence
now that mandatory LWOP is prohibited. This requires
distinguishing young defendants whose crimes reflect
“transient immaturity” from those whose crimes reflect
“irreparable corruption.” Miller, 567 U.S. at 479-80. This
optimism is negated by our recent holding in Bassett where

¶65 I additionally highlight our recent rulings in Bassett, 192
Wn.2d 67, 428 P.3d 343, and Houston-Sconiers, 188 Wn.2d 1,
391 P.3d 409, and their potential implications in light of the
court’s holding today. These cases respectively invalidated all
LWOP sentences and effectively eliminated the SRA’s
mandatory sentencing requirements for juveniles based
on [*36] Miller, 567 U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d
407 (holding mandatory LWOP for juveniles is cruel). As
today’s holding almost identically mirrors Miller, I believe
the lead opinion today paves a path for the court to invoke the
same logic underlying Houston-Sconiers and Bassett to revisit
and invalidate a staggering number of LWOP and SRA
sentences, particularly in light of the retroactive nature of
Houston-Sconiers established in In re Personal Restraint of
Ali, 196 Wn.2d 220, 226, 242, 474 P.3d 507 (2020).

II. The Limitations of Personal Restraint Petitions Are Eroded
by Invoking The “Constitutionality” Exception to the Time
Bar under RCW 10.73.100(2)
¶67 Under Washington law, Bartholomew and Monschke as
convicted murderers do not have unlimited attempts to appeal
their sentences. Rather, convicted appellants are limited to
one direct [*37] appeal as of right and discretionary review
as granted by this court through a petition for review. After
that, appellants have one year to bring additional
postconviction challenges to a valid judgment through a
personal restraint petition (PRP), unless subject to an
exception. RCW 10.73.090, .100. These limitations help
manage the flow of postconviction relief, protect the
judiciary’s time and resources, and foster respect for the
finality of judicial decisions.
¶68 The lead opinion today relies on RCW 10.73.100(2) as an

Vishal Garg A82

Page 17 of 19
2021 Wash. LEXIS 152, *37
exception to the time bar to give the petitioners another shot
at crafting a new constitutional rule and overturning
precedent. Lead opinion at 5, 30. This exception reads, in
part, “The time limit specified in RCW 10.73.090 does not
apply to a petition or motion that is based solely on one or
more of the following grounds: … [t]he statute that the
defendant was convicted of violating was unconstitutional on
its face or as applied to the defendant’s conduct.” RCW
10.73.100(2) (emphasis added).
¶69 This “constitutionality” exception is inapplicable
according to the very plain language of the statute. This
exception limits the challenge to the statute that the defendant
“was convicted of violating.” Id. (emphasis added). This
exception [*38] is inapplicable because the petitioners were
not convicted of violating the mandatory LWOP sentencing
statute, RCW 10.95.030. They were convicted of aggravated
murder—RCW
10.95.020.
The
legislature
clearly
distinguishes between sentences and convictions in the
collateral attack statute. See RCW 10.73.100(5), (6). But the
lead opinion altogether bypasses the plain language of the
statute and, instead, erroneously relies on In re Personal
Restraint of Runyan to justify its position—quoting that
“convictions under unconstitutional statutes … ‘are as no
conviction at all and invalidate the prisoner’s sentence.’” Lead
opinion at 5 (emphasis added) (quoting 121 Wn.2d 432, 445,
853 P.2d 424 (1993)). This quote only further solidifies that
this exception applies to convictions and not sentences, and
that it is wholly inapplicable to the petitioners.
¶70 By forcing these PRPs through this exception, the court
now permits virtually all challenges to sentences while also,
and most notably, avoiding the retroactivity analysis required
for changes in the law. See RCW 10.73.100(5), (6); RAP
16.4(c)(4).
¶71 Retroactivity analysis is important because not every
procedural technicality merits overturning a valid sentence or
conviction. Yet, the lead opinion nonetheless shoehorns the
petitioners’ claims through this exception, [*39] and in doing
so, bypasses this important barrier that safeguards the State’s
resources and the families of victims from having to endure
another trial or sentencing hearing.
¶72 Monschke and Bartholomew have been incarcerated for
decades. They had their day in court to challenge their
convictions and assert novel legal theories. Their time
expired, and they must now wait to see if other challengers
are able to mount a successful legal challenge that is material
to their cases. See RCW 10.73.100(6). Today, the lead opinion
stretches the “constitutionality” exception beyond credulity to
address the merits of Monschke’s and Bartholomew’s
petitions. In doing so, it greatly expands the scope of personal

restraint petitions in Washington. The people of Washington
are entitled to their day in court. Monschke and Bartholomew
had theirs. I am concerned that the rights of others will be
diluted as courts must stretch thin resources even thinner to
address this new class of collateral attacks.
III. The Court Must Apply Bassett To Determine What a
“Cruel” Punishment Is Because Prohibiting Mandatory
LWOP Is a Categorical Bar under Ali
¶73 In deciding what punishments are prohibited under article
I, section 14 of our state constitution, we must determine what
“cruelty” [*40] is. To do this, the court has previously
applied the categorical bar23 test outlined in Bassett, 192
Wn.2d at 85-86. The Bassett24 test provides a balanced
approach for evaluating whether a punishment is cruel under
the state constitution as applied to a certain class of persons
by (1) analyzing whether this punishment is barred by other
states through their legislatures and judiciaries and (2)
exercising our independent judgment in determining the
culpability of the group when considering the crime and if the
punishment serves legitimate penological goals. Id. at 85-87.
¶74 We are bound to apply Bassett based on our recent
decision in In re Personal Restraint of Ali, where we held that
Miller, 567 U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d 407, was
a categorical bar on punishment when Miller prohibited
imposing mandatory LWOP sentences on juveniles. 196
Wn.2d at 231-32, 238-39 n.5. There, we based our reasoning
on Montgomery v. Louisiana, 577 U.S. 190, 136 S. Ct. 718,
193 L. Ed. 2d 599 (2016). In assessing Miller’s retroactivity,
Montgomery held that Miller’s rule was retroactive because
Miller categorically barred mandatory LWOP by “render[ing]
life without parole an unconstitutional penalty for ‘a class of
defendants because of their status’—that is, juvenile offenders
whose crimes reflect the transient, immaturity of youth.”
Montgomery, 136 S. Ct. at 734 (quoting Penry v. Lynaugh,
492 U.S. 302, 330, 109 S. Ct. 2934, 106 L. Ed. 2d 256 (1989),
abrogated by Atkins v. Virginia, 536 U.S. 304, 122 S. Ct.
2242, 153 L. Ed. 2d 335 (2002)).
¶75 As Montgomery clarifies, Miller was a case [*41]
involving a categorical bar. This case is directly analogous to
Miller and should also be analyzed under Bassett’s categorical

23 Our

other approach to cruelty, not applicable here, is the Fain
proportionality test and it addresses sentences that are
disproportionate to the crime. Bassett, 192 Wn.2d at 82 (citing State
v. Fain, 94 Wn.2d 387, 617 P.2d 720 (1980)).
24 The

lead opinion expressly does not apply the categorical bar test
of Bassett because it claims the petitioners did not argue for a
categorical bar. Lead opinion at 29.

Vishal Garg A83

Page 18 of 19
2021 Wash. LEXIS 152, *41
bar approach. To make a very plain comparison, Miller barred
imposing mandatory LWOP sentences on juveniles. Here, the
lead opinion prohibits imposing mandatory LWOP sentences
on defendants between the ages of 18 and 20. The only
difference between this case and Miller is that we substitute
“juveniles” with “defendants age 18 to 20.” Accordingly,
because Miller was a categorical bar case, this case is as well.
Therefore, we must apply Bassett to determine whether
mandatory LWOP is cruel punishment for this particular
class.
¶76 But instead of simply applying Bassett, the lead opinion
crafts a false distinction to sidestep Bassett by reasoning that
it is not actually creating a new class but, rather, is only
“enlarg[ing]” the class of “youthful defendants” who were
protected in Miller. Lead opinion at 10, 30 n.17. This
distinction is empty and of little help to the lead opinion
because Bassett also merely “enlarged” Miller’s initial class.
¶77 Miller defined the initial class25 of juveniles protected
from LWOP as all “but the rarest of juvenile offenders, those
whose crimes reflect [*42] permanent incorrigibility.”
Montgomery, 136 S. Ct. at 734. In Bassett, we “enlarged” this
class to include those defendants originally excluded from
Miller—those whose crimes could have been said to have
reflected “permanent incorrigibility.” Bassett, 192 Wn.2d at
72, 88-89. Bassett was an extension of a class in the same
sense that petitioners here are “extending” the class. Thus,
even if petitioners are merely extending the class as the lead
opinion claims, they do not get to create a new and less
rigorous test. They must apply our precedent of “extending” a
class, which is Bassett.
¶78 And while we could easily get lost in the semantical
forest of distinguishing “enlarging” a class from defining a
proximate yet distinctive class, common sense provides a
sufficiently clear solution that should dictate the result. If we
were to decide Miller again today under our state constitution,
those juveniles would be subject to the categorical bar test,
pursuant to Bassett and Ali. And had Monschke and
Bartholomew brought their claims alongside those juveniles,
they would be subject to the same exacting standard. I see no
reason to require any less of the petitioners here today.
IV. Applying Bassett, We Should Find That No States Have

25 Miller

further never exempted a vague class of “youthful
defendants” as the lead opinion claims. Lead Opinion at 10. Miller’s
holding expressly applied to “juveniles” under age 18: “[w]e
therefore hold that mandatory life without parole for those under the
age of 18 at the time of their crimes violates the Eighth Amendment’s
prohibition on ‘cruel and unusual punishments.’” Miller, 567 U.S. at
465; U.S. Const. amend. VIII.

Expressly [*43] Exempted This Age Group (18-20 from
Mandatory LWOP and That Young Adults Are More
Responsible for Their Actions
¶79 If the lead opinion applied Bassett, it would conclude that
there are no states that have expressly exempted 18-20 year
olds from mandatory LWOP through the legislative or judicial
process. The lead opinion concedes there is “no national
majority” of states with such a rule and, furthermore, fails to
show there are any such states with such a rule. Lead opinion
at 10 n.8. But nonetheless, the lead opinion would apparently
rewrite the national trend inquiry to include evaluation of
factors such as legislation that “carve[s] out rehabilitative
space for ‘young’ or ‘youthful’ offenders as old as their midtwenties.” Id. But this approach vastly departs from our
holding in Bassett, which expressly directs us to look at the
national trends as applied to the “sentencing practice at
issue.” Bassett, 192 Wn.2d at 83 (emphasis added) (citing
Graham v. Florida, 560 U.S. 48, 61, 130 S. Ct. 2011, 176 L.
Ed. 2d 825 (2010)). While the lead opinion provides support
for treating young adults with the leniency of the juvenile
system in limited circumstances, none of their authorities
address the sentencing practice at issue, i.e., mandatory
LWOP for aggravated murder.
¶80 But even assuming we could broaden [*44] our inquiry,
there is still insufficient evidence to find that the sentence is
unconstitutional beyond a reasonable doubt. Bassett, 192
Wn.2d at 77 (citing State v. Hunley, 175 Wn.2d 901, 908, 287
P.3d 584 (2012)). The lead opinion relies on laws in
Washington D.C., Florida, and South Carolina, among others,
as states that create classes of “young adults” who may be
treated with leniency under the juvenile system. Lead opinion
at 9-10 n.8.
¶81 But even these laws do not provide the support that the
lead opinion claims for an “affirmative trend” that is relevant
to the petitioners, as many of these statutes expressly exempt
those young adults who commit murder or other violent
crimes from being treated with more leniency. Id. at 10 n.8.
For example, Washington D.C. carves out a “rehabilitative
space” as the lead opinion asserts, but this “rehabilitative
space” applies only to “person[s] [who have] committed a
crime other than murder.” D.C. CODE 24-901(6). Florida,
likewise, permits lenient treatment as “youthful offender[s]”
only for those who did not commit a capital or life felony.
Fla. Stat. Ann. § 958.04(1)(c). And South Carolina treats as
“youthful offenders” only those who have not been convicted
for a “violent crime.” S.C. Code Ann. § 24-19-10(d)(ii).
¶82 The lead opinion further erroneously relies on support
from our state’s laws when it notes that our juvenile [*45]
court system can retain jurisdiction over juveniles in limited

Vishal Garg A84

Page 19 of 19
2021 Wash. LEXIS 152, *45
circumstances until the age of 25. Lead opinion at 21 (citing
RCW 13.04.030(1)(e)(v)(C)(II)). Notably, however, our
juvenile courts have no jurisdiction over 16-and 17-year-old
juveniles who are charged with murder. RCW
13.04.030(1)(e)(v)(A), (C)(I); see also RCW 13.40.300(5)
(subject to only a few exceptions, “the juvenile court has nojurisdiction over any offenses alleged to have been committed
by a person eighteen years of age or older”).
¶83 Thus, not only is there almost no evidence that there is a
national trend of carving out a “rehabilitative space” for
young adult murderers, but our own legislature has expressly
spoken on this issue: young murderers are to be treated the
same as adults under our laws.
¶84 But the lead opinion unnecessarily analyzes these statutes
in the first place because the petitioners—required to prove
the unconstitutionality of their sentences beyond a reasonable
doubt—have put forth no such evidence of any legislative or
judicial trend. Bassett 192 Wn.2d at 77 (citing Hunley, 175
Wn.2d at 908); see lead opinion at 29 (“[T]he petitioners have
neither argued nor shown that LWOP would be categorically
unconstitutional as applied to older defendants.”). The lead
opinion far exceeds the confines of judicial restraint when it
finds [*46] these authorities on its own accord and argues
them on behalf of the petitioners. The petitioners have plainly
put forth no evidence of a legislative trend, and this factor
should weigh heavily against the petitioners.

age of majority and replaces it with a handful of scientific
studies. The court’s second guessing of the legislature is
questionable as this court is inferior to the legislature in both
time and resources to adequately consider the issue. Second,
the lead opinion improperly applies the “constitutionality
exception” under RCW 10.73.100(2) and circumvents the
necessary retroactivity analysis. This will potentially flood
courts with petitions, deprive courts of resources, and weaken
protections against overturning finalized convictions and
sentences on technicalities. Third, the lead opinion ignores
our Washington “cruel” punishment jurisprudence by
ignoring Bassett. By doing this, the lead opinion circumvents
the reality that no states have extended such a protection, and
jeopardizes our balanced approach to assessing “cruelty.” The
lead opinion’s monumental rule today entails severe
consequences that may lead to extending prohibitions of
mandatory LWOP and SRA sentences to this new group
under [*48] Houston-Sconiers and Bassett. This deserves a
much more cautious approach, and I respectfully dissent.
JOHNSON, MADSEN, and STEPHENS, JJ., concur with OWENS,
J.

References
LexisNexis Practice Guide: Washington Criminal Law
Annotated Revised Code of Washington by LexisNexis

¶85 Next, applying our independent judgment under the
second prong of Bassett, the petitioners are fundamentally
different from juveniles—they can get jobs, quit school, get
married, form contracts, and drive cars—all without the
permission of their parents. No longer juveniles with
subordinate rights, these adults have the legal ability to
“‘extricate’” themselves from “‘criminogenic setting[s].’”
Roper, 543 U.S. at 569 (quoting Laurence Steinberg &
Elizabeth S. Scott, Less Guilty by Reason of Adolescence:
Developmental Immaturity, Diminished Responsibility, and
the Juvenile Death Penalty, 58 AM. PSYCHOLOGIST 1009,
1014 (2003)). Aggravated murder is undoubtedly one of the
most serious crimes on the books, and permanently isolating
murderers like Monschke and Bartholomew serves the
legitimate penological goals of retribution, deterrence, and
incapacitation. As the Bassett test does not weigh in this new
class’s favor, I would hold that mandatory LWOP is not
unconstitutionally cruel.

United States Code Service (USCS) by LexisNexis

End of Document

CONCLUSION
¶86 The lead opinion’s [*47] ruling contains three critical
flaws when it requires courts to exercise discretion in
imposing LWOP sentences for 18-20 year olds. First, the lead
opinion improperly strips the legislature’s role in defining the
Vishal Garg A85

